<html>
<title> - HOW CAN THE FEDERAL GOVERNMENT ASSIST STATE AND LOCAL PROGRAMS TO PROTECT CITIZENS AND COMMUNITIES AGAINST DRUG-RELATED VIOLENCE</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





   HOW CAN THE FEDERAL GOVERNMENT ASSIST STATE AND LOCAL PROGRAMS TO 
     PROTECT CITIZENS AND COMMUNITIES AGAINST DRUG-RELATED VIOLENCE

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 21, 2003

                               __________

                           Serial No. 108-106

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

91-837              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
JOHN SULLIVAN, Oklahoma              C.A. ``DUTCH'' RUPPERSBERGER, 
NATHAN DEAL, Georgia                     Maryland
CANDICE S. MILLER, Michigan          ELEANOR HOLMES NORTON, District of 
TIM MURPHY, Pennsylvania                 Columbia
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN R. CARTER, Texas                CHRIS BELL, Texas
WILLIAM J. JANKLOW, South Dakota                 ------
MARSHA BLACKBURN, Tennessee          BERNARD SANDERS, Vermont 
                                         (Independent)

                       Peter Sirh, Staff Director
                 Melissa Wojciak, Deputy Staff Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
              Philip M. Schiliro, Minority Staff Director

   Subcommittee on Criminal Justice, Drug Policy and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
NATHAN DEAL, Georgia                 ELIJAH E. CUMMINGS, Maryland
JOHN M. McHUGH, New York             DANNY K. DAVIS, Illinois
JOHN L. MICA, Florida                WM. LACY CLAY, Missouri
DOUG OSE, California                 LINDA T. SANCHEZ, California
JO ANN DAVIS, Virginia               C.A. ``DUTCH'' RUPPERSBERGER, 
EDWARD L. SCHROCK, Virginia              Maryland
JOHN R. CARTER, Texas                ELEANOR HOLMES NORTON, District of 
MARSHA BLACKBURN, Tennessee              Columbia
                                     CHRIS BELL, Texas

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
          Christopher Donesa, Staff Director and Chief Counsel
       Nicholas P. Coleman, Professional Staff Member and Counsel
                         Nicole Garrett, Clerk
                  Julian A. Haywood, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 21, 2003....................................     1
Statement of:
    Dean, Arthur T., chairman and CEO, Community Anti-Drug 
      Coalitions of America; Robert Burley, Sr., president Oliver 
      Community Association and Pastor, New Life Missionary 
      Baptist Church; Linda S. Thompson, coordinator, Baltimore 
      Community Anti-Drug Coalition, and acting chair and 
      associate dean, University of Maryland School of Nursing; 
      Iris Tucker, pastor, Knox Presbyterian Church..............    73
    O'Malley, Martin, mayor, city of Baltimore; accompanied by 
      Preston L. Grubbs, Assistant Special Agent in Charge, 
      Baltimore District Office, Drug Enforcement Administration; 
      and Thomas Carr, Director, Baltimore/Washington High 
      Intensity Drug Trafficking Area............................    15
    Woods, Alan C., III, director, Governor's Office of Crime 
      Control and Prevention; Kevin P. Clark, commissioner, 
      Baltimore City Police Department; Lieutenant Colonel David 
      W. Czorapinski, chief, Maryland State Police, Operations 
      Bureau; and Anthony Romano, chief, Organized Crime Bureau, 
      Baltimore City Police Department...........................    40
Letters, statements, etc., submitted for the record by:
    Carr, Thomas, Director, Baltimore/Washington High Intensity 
      Drug Trafficking Area, prepared statement of...............    27
    Clark, Kevin P., commissioner, Baltimore City Police 
      Department, prepared statement of..........................    50
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............    11
    Czorapinski, Lieutenant Colonel David W., chief, Maryland 
      State Police, Operations Bureau, prepared statement of.....    58
    Dean, Arthur T., chairman and CEO, Community Anti-Drug 
      Coalitions of America, prepared statement of...............    75
    Grubbs, Preston L., Assistant Special Agent in Charge, 
      Baltimore District Office, Drug Enforcement Administration, 
      prepared statement of......................................    20
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     4
    Thompson, Linda S., coordinator, Baltimore Community Anti-
      Drug Coalition, and acting chair and associate dean, 
      University of Maryland School of Nursing, prepared 
      statement of...............................................    83
    Woods, Alan C., III, director, Governor's Office of Crime 
      Control and Prevention, prepared statement of..............    43

 
   HOW CAN THE FEDERAL GOVERNMENT ASSIST STATE AND LOCAL PROGRAMS TO 
     PROTECT CITIZENS AND COMMUNITIES AGAINST DRUG-RELATED VIOLENCE

                              ----------                              


                         MONDAY, JULY 21, 2003

                  House of Representatives,
 Subcommittee on Criminal Justice, Drug Policy and 
                                   Human Resources,
                            Committee on Government Reform,
                                                     Baltimore, MD.
    The subcommittee met, pursuant to notice, at 10:35 a.m., in 
University of Maryland School of Nursing, Baltimore, MD, Hon. 
Mark Souder (chairman of the subcommittee) presiding.
    Present: Representatives Souder, Cummings, and 
Ruppersberger.
    Staff present: Christopher Donesa, staff director and chief 
counsel; Nicholas P. Coleman, professional staff member and 
counsel; Nicole Garrett, clerk; and Julian A. Haywood, minority 
counsel.
    Mr. Souder. The subcommittee will come to order. Good 
morning. It is a real pleasure to be here in Baltimore today, 
and particularly, be in the district of our distinguished 
ranking member, Mr. Cummings. The subject of our hearing today, 
however, is a more serious one prompted by a tragic incident, 
the violence against the Dawson family. We are here today to 
consider how the Federal Government can best work with cities, 
and State, and local governments to support and protect brave 
individuals like Angela Dawson who are willing to stand up in 
their communities against drug dealing and drug violence.
    In Baltimore, the pain of drug abuse is especially felt. 
There were nearly 500 drug-induced or drug-related deaths in 
2001; approximately 10 percent of all the deaths in the area. 
Drug dealers have taken over many parts of the city, making 
law-abiding citizens virtual prisoners in their own homes. In 
the face of this threat, many citizens and families have 
stepped forward to try to take back their neighborhoods from 
dealers and gangs, often at great personal risk.
    The Dawson family is the most recent and poignant reminder. 
Angela Dawson lived in Baltimore with her husband, Carnell, and 
their five young children. In an effort to rid her street of 
drug dealers, she repeatedly called 911, reporting suspicious 
activity to the police. Her efforts came at a terrible price. 
In the early morning hours of October 16, 2002, the Dawson 
family's home was firebombed by a local drug dealer in 
retaliation. The bombing claimed the lives of Angela, Carnell, 
and all five of the Dawson children.
    This horrible crime is but one illustration of the dangers 
faced by honest citizens when they seek to work with law 
enforcement authorities to improve their neighborhoods and the 
lives of their families. These murders, however, have steeled 
the resolve of local communities and Federal authorities to 
find ways to protect people like the Dawsons from retaliation 
by drug dealers and other criminals. The national drug czar, 
John Walters, and other officials and Members of Congress have 
also stepped forward to find ways to assist State and local 
authorities in this effort.
    In direct response to the tragedy, my friend and colleague, 
the subcommittee ranking member, Elijah Cummings, introduced 
H.R. 1599, the Dawson Family Community Protection Act. I 
strongly support this bill as a cosponsor. It directs at least 
$1 million in funds for the High Intensity Drug Trafficking 
Areas [HIDTA] program, to be spent on neighborhood safety 
measures, including the protection of potential witnesses and 
the operation of a toll free telephone hotline for use by the 
public to provide information about illegal drug-related 
activities. The bill was subsequently added to H.R. 2086, the 
legislative reauthorization of the Office of National Drug 
Control Policy, which has been approved by both the 
subcommittee and the full committee on a bipartisan basis. I 
expect it will soon be passed on the House floor; hopefully, 
this week.
    The recent announcement of the 25 Cities Initiative by 
Director Walters is another response to the problem, 
demonstrating the commitment of the administration to this 
issue. Additional measures may need to be taken, however, to 
ensure the protection of people like the Dawsons, not only in 
Baltimore, but across the country.
    We hope at this hearing to have a broad-ranging and open 
discussion of these issues and potential solutions. We are 
pleased to be joined by the mayor of Baltimore, Mr. Martin 
O'Malley, who has taken the time out of his very busy schedule 
to discuss this problem. We also welcome two representatives of 
the Federal agencies responsible for fighting the scourge of 
illegal drugs, Mr. Preston Grubbs, Assistant Special Agent in 
Charge of the DEA's Baltimore District Office, and Director 
Thomas Carr of the Baltimore/Washington High Intensity Drug 
Trafficking area, administered by ONDCP.
    It is equally important for us to talk to the State and 
local law enforcement agencies who do so much to combat drug 
trafficking on the streets. We are, therefore, pleased to be 
joined by Director Alan Woods of the Governor's Office of Crime 
Control and Prevention; Commissioner Kevin P. Clark of the 
Baltimore City Police Department; Lieutenant Colonel David 
Czorapinski, chief of the Operations Bureau of the Maryland 
State Police; and Chief Anthony Romano of the Baltimore Police 
Department's Organized Crime Bureau.
    Finally, we always need to hear from private and faith-
based organizations that dedicate themselves to educating young 
people about the dangers of drug abuses and providing treatment 
to those burdened by drug addiction. We welcome General Arthur 
Dean, chairman and CEO of the Community Anti-Drug Coalitions of 
America [CADCA], a frequent witness before our subcommittee; 
the Reverend Dr. Robert Burley, president of the Oliver 
Community Association and Pastor of New Life Ministry Baptist 
Church; Dr. Linda Thompson, Coordinator of the Baltimore 
Community Anti-Drug Coalitions and Acting Chair and Associate 
Dean of the University of Maryland School of Nursing; and the 
Reverend Iris Tucker, pastor of the Knox Presbyterian Church. 
We thank everyone for taking the time to join us today and look 
forward to your testimony.
    I would now like to recognize Mr. Cummings for an opening 
statement.
    [The prepared statement of Hon. Mark E. Souder follows:]

    [GRAPHIC] [TIFF OMITTED] T1837.001
    
    [GRAPHIC] [TIFF OMITTED] T1837.002
    
    [GRAPHIC] [TIFF OMITTED] T1837.003
    
    Mr. Cummings. Thank you very much, Mr. Chairman. I want to 
thank you very sincerely for convening this tremendously 
important subcommittee hearing here in Baltimore today. I am 
glad that Mayor O'Malley and representatives of the Governor's 
Office, and our Federal, State, and local law enforcement 
agencies are with us. We also are joined today by a number of 
private citizens who are fighting the drug issue at the 
grassroots level, and their participation in today's hearing is 
equally important.
    Mr. Chairman, today's field hearing represents a 
continuation of our efforts in the House Drug Policy 
Subcommittee to address the issue of illegal drugs in a 
constructive and bipartisan manner. While you and I may 
disagree on many issues, we share the belief that there is no 
greater issue facing our Nation today than the issue of illegal 
drugs. Addressing the problem effectively requires a bipartisan 
commitment from Congress, and I applaud you for your bipartisan 
leadership in our shared effort to overcome this plague. We 
also recognize that this is a multidimensional issue that 
requires a multifaceted response from all levels of government: 
Federal, State, and local.
    In a previous field hearing here in Baltimore, the 
subcommittee considered the issue of drug treatment; in 
particular, we examined the effectiveness of drug treatment as 
a complement to law enforcement efforts to reduce drug abuse, 
and related crime, and social problems. Today, we directly 
address the issue of drug-related violence; specifically, how 
the Federal Government can contribute to efforts to make 
communities safer from the brutality that accompanies the 
domestic drug trade.
    In the wake of September 11, the country has learned much 
about the connection between drugs and terrorism. In recent 
years, the term ``narco-terrorism'' has been coined to describe 
the calculated efforts of drug trafficking organizations to 
intimidate their foes through overt violent acts. Generally, we 
have seen that term ``narco-terrorist'' applied to 
organizations that operate outside of the United States; 
particularly, in Colombia, South America, while groups warring 
against the Colombians finance their efforts by producing and 
distributing most of the heroin and cocaine sold and consumed 
on the east coast, including in the Baltimore metropolitan 
area.
    Last fall, however, the Nation got a horrific glimpse of 
narco-terrorism as practiced by American drug gangs when the 
Dawson family here in Baltimore was murdered by arson in the 
early morning hours of October 16, 2002. Angela Dawson, the 
courageous matriarch of the Dawson family, was well known as a 
community pillar in the Oliver section of east Baltimore. She 
struggled daily to keep her children away from drugs and to 
keep the drug trade away from her family's home. Angela 
Dawson's struggles included complaints to the police about the 
blatant drug distribution occurring in the immediate vicinity 
of the Dawson home on East Preston Street. According to the 
police and press reports, one of the subjects of her 
complaints, a young drug dealer, allegedly retaliated against 
these efforts by setting the Dawson home ablaze as the family 
slept inside. Killed in the fire were Angela Dawson and five of 
her children. Her husband and father to those children, Carnell 
Dawson, died just days later of injuries sustained in the fire.
    This incomprehensible tragedy sent shockwaves throughout 
Baltimore City and beyond, and is still sending shockwaves. 
Just me reading this, it just reminds me, Mr. Mayor, of our 
time when we sat at the funeral and saw those six--five small 
caskets, and then Ms. Dawson's, and then a day or two later to 
see--to go to another funeral of Mr. Dawson, who died 
subsequently. The event and the heartbreaking funerals that 
followed drew national and international press attention and 
exposed to the world the brutality of the drug trade in 
Baltimore City.
    At my request, John Walters, the Director of the White 
House Office of National Drug Control Policy, took immediate 
action to send violent drug trafficking organizations in 
Baltimore City a clear message. The Federal response he offered 
went beyond the important symbolism of the drug czar's 
appearance and impassioned remarks at the funeral for the 
Dawson family. Director Walters provided substance as well by 
immediately making the public commitment to reallocate $2 
million in discretionary funds from the Federal High Intensity 
Drug Trafficking Areas [HIDTA] program, to support a new 
Baltimore Targeting Initiative, a plan developed by the 
Baltimore City Police Department in conjunction with 
Washington-Baltimore HIDTA Director Tom Carr.
    I once again applaud Director Walters for this bipartisan--
and I emphasize that--bipartisan initiative designed to crack 
down on major drug trafficking organizations operating in 
several of the hardest hit neighborhoods in Baltimore City, as 
well as supportive efforts to increase police patrols, improve 
street lighting, install surveillance cameras, and establish a 
toll-free informant hotline.
    I also applaud you, Mr. Chairman, for your decision to join 
me in assuring that community protection efforts like those 
supportive of the Baltimore Targeting Initiative receive 
sustained Federal support.
    I also have to recognize the mayor for his efforts, because 
he was out there from the beginning and said that he would make 
sure, along with us, that we would not allow the Dawson family 
to die in vain. And Mr. Mayor, I thank you for all of your 
efforts.
    The Dawson Family Community Protection Act that we have 
introduced, H.R. 1599, would require the Director of the 
National Drug Control Policy to direct at least $1 million each 
year to support HIDTA initiatives designed to increase 
community safety and encourage community cooperation with law 
enforcement in areas severely affected by drug violence. Thanks 
to you, Mr. Chairman, the bill's provisions were included in 
H.R. 2086, the Office of National Drug Control Policy 
Reauthorization Act of 2003, which was approved by the full 
House Government Reform Committee in June and is scheduled for 
consideration by the entire House later this week.
    Individuals and families like the Dawson family who possess 
the courage to stand up to drug trafficking in their 
neighborhoods are the very people who keep the social fabric of 
distressed communities from unraveling. Their continued 
community-based leadership is essential to the success of local 
and national efforts against drugs and drug-related violence. 
The same leadership and commitment to their neighborhoods can 
make courageous families like the Dawsons reluctant to uproot 
themselves in exchange for the safety and anonymity that 
witness relocation programs can offer when cooperation leads to 
police investigations. This presents the challenge of 
protecting them where they now live.
    The Dawson tragedy also underscores the fact that while one 
person or one family acting alone can make a difference, it 
will require the entire Baltimore City community working 
together to overcome the drug plague. Every sector of the 
community must be involved. I have often said, after practicing 
law for 20 years, that most of the crimes that were solved were 
solved with the cooperation of the public. Whenever the public 
feels fear and feels that they may be harmed by cooperating, we 
are only walking down a road of chaos. This is why I have taken 
on the challenge of encouraging the development of a broad-
based community anti-drug coalition that I hope will establish 
firm roots and grow with the support of matching funds from the 
Federal Drug-Free Communities Support Program administered by 
the drug czar's office.
    Today's hearing, finally, offers an opportunity to hear 
about the very encouraging results that we have achieved to 
date as a result of the Baltimore Targeting Initiative, as well 
as the potential for expanding Federal support for the more 
extensive community protection initiatives as proposed in H.R. 
1599. In addition, the hearing will address the importance of 
communities working together in closer cooperation with law 
enforcement.
    We will hear testimony that supports the important roles 
that community anti-drug coalitions can play in addressing the 
problem with drug abuse and related crime in distressed urban 
communities, such as those neighborhoods that are the focus of 
the Baltimore Targeting Initiative. As I noted earlier, this is 
a multidimensional problem that requires a multifaceted and 
multi-sector solution.
    Mr. Chairman, allow me to again thank you for coming to 
Baltimore for the second time as the chairman of the Drug 
Policy Subcommittee. Last year, I had the privilege of visiting 
your district when the subcommittee convened in Fort Wayne, IN. 
What I learned there will stick with me forever. Hearing 
Republican judges talk about the devastating impact of drug 
abuse in suburban and rural Indiana truly brought home the 
truth that drugs are not just an urban problem. They are a 
problem that the entire Nation must face squarely and must 
overcome. Still, as we will hear today, cities like Baltimore 
face unique and difficult problems because of the concentration 
and intensity of the violent drug trafficking activity that 
occurs here.
    Each of our witnesses has demonstrated a strong commitment 
to addressing and solving these compelling threats, and their 
constant efforts and commitment are as invaluable and greatly 
appreciated as they are under-recognized. So I thank all of our 
witnesses for coming, and I sincerely hope that we learn here 
today--what we learn here today not only helps us succeed in 
Baltimore City and our region, but also in other regions around 
the Nation that face similar challenges. I also hope that 
today's meeting will help to stimulate even greater involvement 
from the Baltimore City community at large.
    I also want to thank President Ramsey who is here at the 
University of Maryland. Thank you, President Ramsey. We want to 
thank the University of Maryland School of Nursing for having 
us, and I certainly want to take time to thank Dr. Linda 
Thompson, who is head of our coalition, and to thank Mike 
Christianson, who is somewhere here, of my staff, for all that 
he has done.
    Finally, let me say this. Mr. Mayor, when we went to those 
funerals and we made that commitment that the Dawson family 
would not die in vain, it was a very strong commitment. And 
this is another effort that we are all making to try to address 
that, to make sure we kept our promise to not only the Dawson 
family but to people in communities who are fighting with all 
their hearts to make a difference. And so we are very excited 
about this.
    And one of the things that I must underscore, Mr. Chairman, 
is the bipartisan nature of this. We could not have done, 
pulled all this off, unless Republicans and Democrats came 
together, supported by the drug czar, by the way, and supported 
by even the Speaker of our House, who is a Republican. So you 
know, it is a bipartisan effort, and I think that the more we 
move toward that bipartisanship, the more we will be able to 
achieve in this country and the better we will be able to 
protect our citizens.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]

[GRAPHIC] [TIFF OMITTED] T1837.004

[GRAPHIC] [TIFF OMITTED] T1837.005

    Mr. Souder. Thank you. Now I would like to yield to Mr. 
Ruppersberger, who has also been one of the most active members 
on our subcommittee and a pleasure to work with.
    Mr. Ruppersberger. Well, thank you, Mr. Chairman, for 
coming to Baltimore. I see so many people here that I used to 
work with as county executive, Mr. Mayor. We did a lot in the 
area of drug enforcement, and I was pleased to have Congressman 
Elijah Cummings as one of the Congressmen representing my area. 
And you could not have a more tenacious person who cares about 
people and community, and especially, about this issue of 
drugs. It is devastating our communities. And what is so 
important here today is we come together as a team. We have 
elected officials, our law enforcement, our communities, our 
churches, all coming together to take care and fight this 
horrific problem.
    Many citizens across America often ask themselves when they 
find their communities are plagued with drugs and crime, ``Am I 
my brother's keeper?'' As government programs target the 
trafficking networks of major narcotic producers, good citizens 
from communities across the Nation are finding it increasingly 
difficult to say, ``Yes, I am.'' The issue is not one of 
incentive. Too many people from too many localities have seen 
the devastating impact of drug markets firsthand, and it is an 
issue of safety for themselves and their families. The programs 
offering protection to potential witnesses are available with 
varying degrees of effectiveness in some cities. It is 
imperative that as soon as possible Congress appropriate 
additional funds to the Office of National Drug Control Policy 
for the express purpose of establishing and improving alert 
citizen protection programs across the Nation.
    I am a former prosecutor who specialized in investigations 
of organized crime, major drug trafficking, contract murder, 
all those violent crimes, all mostly dealing with drugs. I 
believe the statistics are at least 85 percent of all violent 
crime is somehow drug related. And I have also been exposed to 
many horrific and evil persons, but this brutal attack on the 
Dawsons was one of the most evil that I have experienced. I 
attended the Dawson family funeral with the mayor, and 
Congressman Cummings, and many people in this room, and it left 
a deep impression upon me, one that will resonate with me 
always. I followed the story of the Dawson family tragedy since 
it broke and have been greatly troubled by the malicious 
events. And I hope that the high profile nature of this case 
will attract and sustain national attention to the plight of 
others currently in the Dawson family's position; especially, 
Mrs. Dawson. It is an injustice that innocent good citizens of 
the United States must live as captives to criminals in the 
land of the free.
    We ask local law enforcement to handle many 
responsibilities, including, but certainly not limited to, 
finding murders, vigilantes, physically assuring the security 
of our homeland and keeping the general peace. I am sure the 
panel members today will tell you there is no greater resource 
to law enforcement in dealing directly with local crime than 
citizens who come forward to advocate for the welfare of their 
community. Making it easier for citizens to carry out their 
civic responsibility is a crucial objective in combating the 
deadly infestation of drugs in our communities.
    I appreciate the time the witnesses have taken to testify 
here today and look forward to working with my colleagues, 
Chairman Souder, Congressman Cummings, and in their efforts to 
create legislation that will protect citizens of every 
community in the United States of America. In addition, I 
anticipate future and I know future cooperation with local 
officials, such as Mayor O'Malley, Commissioner Clark, who I 
commend for their dedication to making Baltimore a safer place 
for residents to voice their specific concerns. Thank you, Mr. 
Chairman.
    Mr. Souder. This is a fairly busy week on narcotics issues 
in Washington, because we are starting with this hearing. 
Tomorrow, we are scheduled to do the Foreign Operations 
appropriations bill which has money related to trying to 
control the Colombian heroin and cocaine that comes into 
Baltimore and elsewhere around the country. On Wednesday, our 
subcommittee and the Civil Service Subcommittee are holding a 
hearing on Federal law enforcement officers and what we need to 
do with pay rates to try to hold them in our different 
agencies, including in the Homeland Security as well as DEA, 
ATF, and so on. And then on Thursday, Commerce State Justice 
appropriations is supposed to come to the House floor, which 
has the question of how can we get more agents and so on into 
local communities. So we have a lot in front of us this week on 
narcotics issues, and we are privileged to be here in Baltimore 
to launch this aggressive week as we look at how to tackle the 
narcotics problems.
    Before proceeding, I ask unanimous consent that all members 
have 5 legislative days to submit written statements and 
questions for the hearing record and that any answers to 
written questions provided by the witnesses also be included in 
the record. Without objection, it is so ordered. I also ask 
unanimous consent that all exhibits, documents, and other 
materials referred to by Members and the witnesses may be 
included in the hearing record, that all Members be permitted 
to revise and extend their remarks. Without objection, it is so 
ordered.
    Our first panel is composed of two representatives of the 
Federal Government here in Baltimore: Mr. Preston Grubbs, DEA; 
Director Thomas Carr of the Baltimore-Washington HIDTA. It is 
our standard practice to ask witnesses to testify under oath, 
and as well as Mayor O'Malley. I needed to check--Members of 
Congress, we don't swear in, but we take an oath at the time, 
in front of the Congress, so I needed to check on other elected 
officials. But if you will each--we will just do this sitting. 
If you will raise your right hands?
    [Witnesses sworn].
    Mr. Souder. All right. I didn't have your name. Can you say 
your name and spell it for the record?
    Rev. Burley. I am Reverend Doctor Robert C. Burley, Sr., 
the Oliver Community Association.
    Mr. Souder. Actually, you are on a different panel.
    Rev. Burley. OK.
    Mr. Souder. You can stay there. We are going to take your 
testimony on the next--actually, it is the third panel with the 
citizen groups, but I have already sworn you in now. This is a 
committee where actually that matters. The overall Government 
Reform Committee has done the WACO hearings and a lot of the 
Whitewater, and the China, and a lot of that, and so it is a 
formality. We have never had any problems in the narcotics 
area, but thank you for doing that.
    And now, we will start with Mayor O'Malley.

   STATEMENTS OF MARTIN O'MALLEY, MAYOR, CITY OF BALTIMORE; 
 ACCOMPANIED BY PRESTON L. GRUBBS, ASSISTANT SPECIAL AGENT IN 
      CHARGE, BALTIMORE DISTRICT OFFICE, DRUG ENFORCEMENT 
ADMINISTRATION; AND THOMAS CARR, DIRECTOR, BALTIMORE/WASHINGTON 
              HIGH INTENSITY DRUG TRAFFICKING AREA

    Mr. O'Malley. Thank you very much, Mr. Chairman. I 
understand you represent Fort Wayne, IN. Is that true?
    Mr. Souder. Yes.
    Mr. O'Malley. My maternal grandparents are natives of Fort 
Wayne, IN. I used to go out to Fort Wayne, IN and visit my 
grandmother there with a whole gaggle of brothers, and sisters, 
and cousins. It is a pretty part of the country out there. Nice 
people, too. So I welcome you. I will point out in the interest 
of full disclosure and having taken the oath, that my maternal 
grandfather was chairman of the Democratic party in Allen 
County. But when he died, and he died too young, he did have 
both the Chair of the Republican party and the Democratic party 
carrying his casket at the church. So I just want to let you 
know that this is a bipartisan issue, and I have some Hoosier 
in my blood. I also have some bipartisanship in my blood.
    And clearly, an issue where we all need to come together as 
Americans is around this issue of narcotics, whether it is meth 
in Fort Wayne, IN or heroin on the streets of Baltimore, we are 
all one country. And whether you are in Fort Wayne or whether 
you are in Baltimore, there is no such thing as a spare 
American. Each and every one of us is needed. Each and every 
one of us is valuable. Each and every one of us has something 
to contribute to the destiny of this country.
    I want to thank Congressman Cummings for encouraging you to 
come here for this hearing, as ranking member. And of course, 
it is good to see Congressman Ruppersberger, who has also been 
an advocate for additional dollars to attack this scourge. I 
wanted to, also, Mr. Chairman, put into perspective for you 
that what you see going on in the city of Baltimore is not the 
continued domination of Baltimore by drug dealers, but the 
liberation of Baltimore. It does not happen as quickly as we 
would like, but it is happening. And I think it is also 
important to keep in mind, put in perspective, the carnage that 
we are coming out of. In the last decade, we lost 6,000 of out 
citizens, twice the number killed in the attacks on the 
Pentagon and the World Trade Center--6,000 Americans because of 
the foreign chemical attacks of cocaine and heroin. If you 
combine the homicides and the drug overdoses, 6,000 Americans, 
many of them children.
    In October 2002, as we started to come out of this problem, 
coming together, believing in ourselves again, believing in the 
power of neighbors joining with their police force, we were 
shocked once again into a renewed sense of consciousness and a 
renewed sense of purpose by hate that was so powerful that it 
claimed the lives of an entire family in their sleep; a hate 
that tells our children to use drugs, to sell drugs; a hate 
that says that our children are expendable if they are being 
used to sell drugs, or as meals, or as target practice; a hate 
that in its greatest triumph of racism, arguably, tells young 
black men and women that killing each other is nothing because 
they are nothing and because their lives are nothing, that 
their very beings are nothing.
    This was a family whose lives were taken because they were 
trying to do the right thing. And what shocked all of us, and 
what scared all of us, and what made all of us so angry is that 
we know the Dawsons are not an isolated case. We know that in 
each and every block of this city there are good, decent, 
hardworking, holy people who are fighting against all odds to 
make the American dream real for their children, to reclaim 
their corners from 24/7 drug dealer occupation. In this job, I 
have had to bury seven police officers, and before each of 
those funerals, I have to steel myself to looking into the eyes 
of a widow or young children and vowing to them that their 
loved one's loss and sacrifice will not be in vain.
    In this case, I had to look into a grandmother's eyes and I 
had to say those words seven times at the same gravesite. I 
have never been the same since that experience. I don't think I 
ever will be the same. But so long as there is breath in my 
body, I am going to do everything I possibly can to make sure 
that I make good on that promise to Mrs. Golden, that her 
babies' deaths will not have been in vain. We vowed to stand 
together at that time, to summon up even more energy than we 
had already pulled forward, so that none of us could ever be 
singled out. If we all stand together, none of us can be 
singled out. We vowed to drive that hate out of our families, 
out of our homes, out of our neighborhoods. We vowed to build 
on the substantial progress we have made over these last 3 
years. Substantial progress, I might add, that saved the lives 
of many, many people in Baltimore.
    And at that time, the Federal Government stepped up and 
they have helped us. Nothing that we are doing can be done by 
itself. These are foreign chemical attacks. This is not 
something that can be left to local government. it is not 
something that can be left to State government, and it is 
nothing that State and local governments should abdicate to 
Federal Government. It is something we all have to do together. 
We are under attack as a Nation. They are foreign attacks. It 
is coming through our ports, it is coming through our borders, 
and it is attacking our children. So far this year, 21 children 
in the city of Baltimore, because as we have clamped down on 
drug dealers and the drug trade, they have gone to the path of 
least resistance and they are taking our children--21. That is 
a record so far this year. Virtually, all of them young 
African-American kids.
    Director Walters sent $2 million to help us in the wake of 
the Dawson tragedy. We have used it in a smart way, we have 
used it in a strategic way. We have targeted the drug dealers 
in these foreign attacks where they were claiming the most 
lives and we have started to repel it. Working strategically 
through our Police Department and Health Department, we have 
had the wisdom and foresight to see that we could come 
together. We need to come together. So many assets, when they 
join forces, can make a difference in this fight. Building on 
that progress, taking a lot of sacrifice, a lot of hard work 
from the people of our city. It takes every single day people 
risking their lives--every single day. It took more than 
doubling the drug treatment funding.
    Our State was 48, I think, out of 50; here, one of the 
wealthiest States in America, where our major city, our one 
major city, had been dubbed the most indicted city in America 
for 6 years in a row, and we are about 48 out of 50 States in 
drug treatment funding. But we came together. We got our State 
to invest, we went from about $22 million a year to $56 million 
a year, and now that same DEA says that we are leading the 
Nation in the rate of reduction of drug-related emergency room 
admissions, because we are doing more drug treatment, we are 
doing better and smarter law enforcement. We are actually 
starting to come out of that decade when so many of our 
citizens were lost. We still have a long way to go. Just 
because we have gotten better doesn't mean it is good enough.
    We have a long way to go, but we are leading the Nation now 
in the rate of reduction of drug-related emergency room 
admissions, recording, Mr. Chairman, a 55 percent--they don't 
divide it city to county, but they do divide by race. Among 
African-Americans, a 55 percent reduction in heroin-related 
emergency room admissions in just 3 years of trying. And our 
Federal Government has helped us with that. Thank you, 
Congressman Cummings, for all of your hard work in getting us 
additional drug treatment dollars at the Federal level as well.
    We have also--we continue to drive and manage this progress 
through drug STAT, which is a performance measurement tool that 
we use to make sure the most effective drug treatment programs 
are actually getting the dollars as they expand. We have made 
some tremendous strides, Mr. Chairman, but when innocent 
children are killed, when you have an incident--incident seems 
like too trite a word. When you have a massacre like the Dawson 
massacre, all those accomplishments ring hollow. When you still 
have 21 children being killed, and I doubt very seriously as a 
society if they were White children, that our response would be 
as slow. But when things like this are still going on in the 
present day, all of that progress almost sounds hollow. The 
time is long past for law-abiding citizens, caring people like 
the Dawsons, to be victims of the criminals. It is time to make 
the criminals afraid of us and that is what we are doing. 
Public safety is a foundation of all our progress as a society, 
but our real progress has to be measured by the achievement of 
our children, and we need to deliver for them.
    We have so many more lives, Mr. Chairman, to save in our 
city. We have so many more children who need help in order to 
be saved from the drug dealers so that we can do a better job 
of mentoring than the drug trade is doing. And Baltimore is a 
port city, and given our history, our recent history, more than 
most major cities, it is going to continue to be tested by 
these foreign chemical attacks, by heroin, and cocaine, and the 
resulting casualties of addiction and drug violence. This is a 
scourge so terrible that it has taken more Baltimore lives and 
property than two world wars and the fire of 1904. Think about 
that. And yet, we are still only inspecting 6 percent of the 
cargo that comes into the port 1 mile from here.
    As Baltimore is tested, it is going to be our duty to 
continue to make tough choices in local government, to continue 
to make sacrifices. We are going to do everything we can to 
continue to join with our Federal Government. Our Federal 
Government, which is now, thanks to the U.S. Attorney's Office, 
now doing a lot more gun prosecutions, Federal gun prosecutions 
this year than they were last year. HIDTA, DEA, all of this is 
working, Mr. Chairman. If I leave you with nothing else, 
remember this. That just as surely as Baltimore was an example 
to our Nation in 1814 of what a people could do when they 
joined forces together to attack one of the most powerful 
armies and navies to defend America's liberty in that day, so, 
too, is Baltimore an example, in inspiration, to our Nation 
today, because we are digging out of the deepest problem where 
it comes to drugs, drug violence, and drug addiction that any 
city in America could have, and yet, we are doing it. We are 
doing it together, we are making progress. And if we continue 
to make this progress for years to come, all of you will have a 
proud example of what an American city can become. We cannot 
allow any block, any house, any neighborhood in these United 
States of America to become occupied and ruled by the cruel, 
brutal dictatorship of drug dealing, not a single block, not a 
single house. We are not about to become the first city to 
become Mexico City in the continental United States. We are 
going forward, we are going forward together, and any help that 
the Federal Government can give us will be help that we return 
by way of our example. Thank you very much.
    Mr. Souder. Thank you very much for your strong statement. 
Mr. Grubbs.
    Mr. Grubbs. Good morning. Chairman Souder, Ranking Member 
Cummings, and members of the subcommittee, thank you for 
holding this hearing today. And on behalf of the Drug 
Enforcement Administration, I would like to express my sincere 
appreciation for your continued support. The Washington 
Division is a large multi-State area encompassing urban and 
rural drug markets. The Division's area of responsibility 
includes the District of Columbia, as well as the State of 
Virginia, the State of Maryland, and the State of West 
Virginia. The Division's urban areas continue to face 
significant threats posed by heroin and crack cocaine 
distribution and rural areas are experiencing expanding crack 
cocaine markets, marijuana cultivation and abuse, and 
methamphetamine manufacture and abuse.
    To complement DEA's Baltimore District Office in combating 
drug trafficking and abuse in the Baltimore area, DEA 
participates in three HIDTA task force enforcement groups. I 
will briefly explain them. The Mass Transportation Initiative 
concentrates its efforts, its group efforts, in targeting drug 
transportation and smuggling organizations moving drugs into 
and through the Baltimore Metropolitan area. The Violent 
Traffickers Initiative focuses its group efforts in targeting 
local drug trafficking organizations which employ violence to 
sustain the viability of their illicit activities. And finally, 
the Major Drug Traffickers Initiative focuses its group 
investigative efforts against the larger priority target drug 
trafficking organizations in the Baltimore Metropolitan area. 
Also included in this last initiative is a red run group whose 
main focus is to investigate drug trafficking organizations 
with a nexus to drug related homicides.
    For the past several years, the focus of the Baltimore 
District Office of the DEA has been to target violent drug 
trafficking organizations operating in Baltimore in partnership 
with our State and local counterparts. Unfortunately, the 
Dawson family tragedy highlights in many ways the problems we 
face in combating the violent drug trafficking organizations 
operating in Baltimore. Following the horrible tragedy, I made 
all investigative resources of the Baltimore DEA Office 
available to target the perpetrators of this heinous crime, as 
well as to target drug distribution organizations in the 
Dawson's neighborhood. The DEA HIDTA Red Rum group has 
identified an organization in the neighborhood and is making 
progress toward the goal of dismantling that group.
    Following the Dawson tragedy, at the request of Congressman 
Cummings, ONDCP Director Walters reallocated $2 million in 
HIDTA funds to the Baltimore Targeting Initiative. $100,000 of 
these funds were allocated to the Major Drug Traffickers 
Initiative Enforcement Group to include the Red Rum group. 
These additional resources were utilized in combating violent 
drug trafficking groups in the Baltimore area. One wiretap 
investigation recently concluded by the Major Drug Traffickers 
Initiative concentrated on an organization operating in both 
the eastern and western districts of Baltimore City. On 
November 1, 2002, the court authorized interception of cellular 
telephones belonging to members of this organization resulted 
in a Baltimore City Grand Jury indictments being returned 
against the leader of this drug trafficking group for drug 
kingpin charges as well as nine other members of the 
organization also indicted.
    In addition, enforcement actions initiated against this 
group resulted in significant drug, money, and gun seizures. 
Another example of an investigation currently being conducted 
by the Major Drug Traffickers Initiative is actually ongoing, 
as I testify before you today. The investigation started in 
March of this year and targets a large scale heroin trafficking 
organization operating in the Baltimore Targeting Initiative 
area. We have made several purchases of heroin from this 
organization. These purchases have been accomplished utilizing 
the fundings made available from the Baltimore Targeting 
Initiative. Additional investigative efforts are underway to 
identify the command and control elements of this organization 
which will enable us to target the source of supply.
    In conclusion, DEA is a single mission agency and will 
continue to target and dismantle the criminal organizations 
that produce, transport, and distribute drugs in Baltimore and 
throughout the United States. Again, I would like to thank the 
subcommittee for the opportunity to testify today and I would 
be happy to answer any questions at the appropriate time.
    Mr. Souder. Thank you. Mr. Carr.
    [The prepared statement of Mr. Gubbs follows:]

    [GRAPHIC] [TIFF OMITTED] T1837.006
    
    [GRAPHIC] [TIFF OMITTED] T1837.007
    
    [GRAPHIC] [TIFF OMITTED] T1837.008
    
    [GRAPHIC] [TIFF OMITTED] T1837.009
    
    [GRAPHIC] [TIFF OMITTED] T1837.010
    
    Mr. Carr. Chairman Souder, Congressman Cummings, and 
Congressman Ruppersberger, it is a pleasure for me to be here 
today and have this opportunity to report on the progress that 
we have made thus far with the Baltimore Targeting Initiative. 
I have submitted a written copy of my testimony, so what I 
would like to do is, basically, summarize and highlight some of 
the accomplishments that have been achieved thus far.
    As was pointed out, just hours after the tragedy with the 
Dawson family, Congressman Cummings went to the drug czar, 
Director Walters, and was able to secure up to an addition $2 
million to help fund what has now become known as the Baltimore 
Targeting Initiative. Acting under Director Walters' direction, 
I met with the commissioner of the Baltimore Police Department 
and with Mr. Grubbs from the Drug Enforcement Administration, 
and we put together, I think, what has been a very well 
executed initiative that is intelligence driven; that is, it is 
based on data. And it was designed to bring about very quick 
and sustained enforcement results in targeted areas.
    Working with the Baltimore Police Department, we identified 
using data 11 different areas that were found to have 
significant drug crime. Of those 11 areas--well, first, let me 
say, we looked at drug calls, we looked at homicides, 
shootings. We looked at drug arrests in order to make those 
determinations. The next chart, please. Based upon that, we 
picked the three worst areas using that data as the areas we 
would work in to bring about significant reductions in the 
violence and drug trafficking. Basically, it is following the 
philosophy, go fishing where the fish are. We focused on the 
place where these organizations are carrying out their 
violence, they are carrying out their drug trafficking, and 
that is where we determined we would put the brunt of our $2 
million in our efforts, both in street level and Major Drug 
Trafficking organization focus to bring about significant 
reductions in crime.
    As Mr. Grubbs mentioned, the DEA elements were offered up 
$100,000, of which they have used roughly $70,000 of that money 
thus far to do major wiretap investigations. They have taken 
off one significant organization. They have another 
organization that has been designated a consolidated priority 
organization target [CPOT] list, and CPOT designation means 
that they are to merit the utmost attention of Federal law 
enforcement agencies and that they have international 
connections. So we look forward to a positive resolution of 
that.
    In addition, HIDTA funds were used to improve communication 
among the police departments and internal to the Baltimore 
Police Department. We established--or I should say, purchased 
and installed computers. We are working on purchasing street 
lights. We have provided a case management system called Case 
Explorer that allows the Baltimore Police Department, the Drug 
Enforcement Administration, HIDTA initiatives, and other 
agencies operating in the area to share information and 
intelligence about drug dealers, drug organizations and their 
membership that are operating here. We also provided some 
additional funding to tie in 28 unique data bases that were in 
Baltimore Police Department, to tie it into their report 
managing system, and again, to tie it in through HIDTA so that 
all could share in this information. This way we improve 
communications and reduce the unnecessary expenditure of funds 
and the unnecessary duplication of efforts to bring about the 
accomplishments that we brought about.
    I am pleased to report that--next chart, please--based upon 
our efforts thus far, using intelligence driven data in these 
three areas, that we have brought about significant reductions 
in serious crime that has affected the well being of these 
three communities. As you noticed, we did a comparison 6 months 
prior to the initial start and then also 1 year prior to the 
initiative, and you can see that there are reductions in 
murders, and shootings, and robberies, and aggravated assaults 
in all three given areas. Where we see increases, primarily, 
are increases in police activity; that is, the service of 
search warrants, the seizures of guns, and to some degree, it 
shows more cooperation between the police and the community.
    Now, having said that, and seeing that we are making 
significant progress in these three areas, there are two things 
I want to point out that I think are concerns that we all need 
to be watching. The first is a fairly simple one, and that is 
this idea of displacement. We are concerned about are we 
driving crime from these hotspot areas into other areas, and we 
are working with Commissioner Clark and the members of the 
Baltimore Police Department to gather data about this and will 
be able to report back to you on that.
    And the final thing I want to raise an issue with is the 
fact that law enforcement can't do this by itself. The law 
enforcement can create a safe environment here for a while, but 
we need community support, and I know Congressman Cummings has 
been working with the Demand Reduction Office of the Office of 
National Drug Control Policy and Dr. Thompson here, and 
hopefully, we can help get the communities more and more 
involved so that we can sustain these efforts. And with that, I 
will conclude. Thank you very much.
    [The prepared statement of Mr. Carr follows:]

    [GRAPHIC] [TIFF OMITTED] T1837.011
    
    [GRAPHIC] [TIFF OMITTED] T1837.012
    
    [GRAPHIC] [TIFF OMITTED] T1837.013
    
    Mr. Souder. A few questions I would like to just sort 
through, and let me start with a couple of general questions 
first. You talked about the decline and the mayor talked about 
the recent decline in the sense of the last 3 years. Had there 
been an increase in the years immediately prior?
    Mr. Carr. There had been an increase in certain crimes. 
Other crimes had been decreasing but the number that we had 
been following with the greatest interest was the homicide 
figure, and up until I think it was 2000, that had always been 
above the 300 level. In 2000, it came down. I believe it was 
2000, it dropped down significantly, and that was the biggest 
decrease in the homicide numbers in Baltimore in 10 years.
    Mr. Souder. Did the drug level--had the drug crime seen a 
fairly steady number that also--in other words, inside the 
homicides, did the drug-related homicides go down? Admittedly, 
that is the majority. Did major arrests go down? Those figures 
can be misleading, because sometimes when your figures go down, 
it means you are not doing as good a job of finding and 
arresting, but I am trying to get a handle. I am not one who 
believes like some do that the inability to move the statistics 
down is a sign of necessarily of discouragement, because quite 
frankly, in child abuse and spouse abuse, we never get rid of 
them either. You have new people exposed, you have new 
challenges, and different things. I am just trying to get a 
handle on the relative problem in Baltimore.
    Mr. Carr. I could speak to some numbers off the top of my 
head. As I mentioned, one of the big numbers we are looking at 
is the number of murders here, and that has decreased, and I am 
fairly confident in saying that decreased because of the 
enhanced enforcement efforts. There were a number of people 
roaming the streets here that had open warrants on them that 
heretofore, they weren't being paid attention to. So there has 
been efforts to focus on those particular clientele. As far as 
the drug trafficking numbers themselves, internal to that are 
concerned, we do not have good data on that. The best data that 
we have indicates that it is somewhere in the figure between 80 
and 85 percent, I think, of those homicides, violent homicides, 
that are drug related. We are working internally with ONDCP and 
with other members of the government to come up with better 
data to measure the effects of drugs on society so we can make 
a--so we can establish, I should say--performance measures of 
effectiveness.
    Mr. Souder. Mr. Grubbs, the mayor made a reference to the 
court and the number of inspections which, by the way, is a lot 
higher than the national percent. Do many of the narcotics seem 
to be coming in through the port, or some in through the port, 
or what is the distribution here?
    Mr. Grubbs. The port is actually run by the U.S. Customs 
Service, and they have a unit in the HIDTA umbrella, also. I 
can tell you that since September 11th, and that tragedy, the 
airports have seen a significant reduction in the amount of 
both drugs and money that are being carried, body carried, 
through them, due to the increased security procedures. This 
has pushed the traffickers back to the 1995 corridor, where we 
have seen an increase in the number of people arrested in 
interdiction stops, taking drugs, mainly, primarily, to New 
York for distribution. And then the flow of the money back 
south on the highways. I could not speak accurately and give 
you any kind of clear information about the ports.
    Mr. Souder. Mr. Carr, do you know anything--I mean, ports 
are always vulnerable for homeland security purposes. That is 
their charge. I am wondering whether the narcotics the 
Colombians are moving at all through the ports, or the Asian or 
Afghan.
    Mr. Carr. Yes. Roughly, a year-and-a-half ago, we 
established an initiate that focuses on the Port of Baltimore. 
Since that initiative was established, we have come up with 
some significant seizures of drugs coming off the ships. We 
know that Customs has stepped up its efforts to inspect cargo 
on the vessels. But as you pointed out, that number, I think 
the mayor said 7 percent--6 percent. That is a significant 
number because even when you know what specific container the 
drugs are in, it can sometimes take days to unload the ship, 
and then sometimes you have to cut through the container doors, 
and in the walls we find the drugs. I can tell you, as Mr. 
Grubbs alluded to, that with the--following September 11, the 
drug traffickers did shift their methods of operation, methods 
of transportation. Interstate 95 offers free commerce for them 
and a way to ship their drugs. Following that, they also do 
like many of us do. They use the U.S. mail and private mail in 
order to ship drugs across the country, followed by the ports 
and the airports.
    Mr. Souder. In a third area we were discussing earlier, Mr. 
Grubbs, and Mr. Carr, and I, that it seems--and I would like 
you to elaborate on that and then address this question with 
it. It seems that in this area you are dealing not with major 
organizations but with little sub-splits and street dealers who 
go pick it up. This is increasingly happening in the United 
States, and in broad political terms, it feels a lot like Iraq, 
that instead of the major frontal wars that we used to have 
with the Medellin and Callaway cartels, and some of the big 
networks, that now we are dealing with kind of bits and pieces. 
How do you respond to that and are you adapting your strategies 
in DEA and the HIDTA task forces to deal with the fact that--
and what legal changes do we need? How does the city respond 
to, in a sense, a proliferation where we can't find--the theory 
was don't be so hard on the user, go to the next person, turn 
to the next person and the next person. But what about if your 
main distribution network, much like we are seeing in meth 
around the country, that these meth labs provide three other 
people, and there is no network to exactly break.
    Mr. Carr. Do you want me to go first? We have known for 
sometime that the Baltimore Metropolitan area has--well, let me 
put it this way. We described it as a cottage industry. You are 
right, there aren't one, or two, or three organizations that 
control the area with an iron fist. Instead, anyone can get on 
a train, or a bus, or in the car, drive to New York, which is a 
major source city, buy drugs, bring it back, and set up their 
own little mom and pop shop selling drugs. Insofar as street 
level enforcement, what that cottage industry brings by the 
fact that these young people can go to New York, bring these 
drugs back and sell them is it brings intense levels of 
competition, turf wars that are taking place on our street 
corners. And these conflicts often involve the rivals shooting 
rivals in order to gain an edge on the market.
    This has brought about a proliferation of smaller drug 
trafficking organizations. But don't think for 1 minute there 
are not large organizations here. Don't think for 1 minute that 
the Dominicans, who control much of the heroin trade coming 
down into Baltimore, aren't here, because they are, and they 
have an influence. It all ties together. I know, all too often, 
especially with the predecessors at ONDCP, there was always 
more focus on the major drug trafficking organizations and that 
street level enforcement should be left to State and local 
police. Well, I have never known a major drug case to be made 
without having done some street level enforcement. It is the 
information flow that is needed, and it has to be a targeted 
effort.
    And instead of being--in law enforcement, we have too often 
in the past informant driven. We need, as indicated by these 
charts and how it works, we need to be intelligence driven. We 
need to focus on the place crimes are taking place and mount a 
strategy to attack that place, and we reclaim those lands.
    Mr. Grubbs. What we are doing at the Baltimore District 
Office and throughout DEA right now is concentrating on 
strategic intelligence, where in the past, whenever we were 
gathering our intelligence, we were looking at investigative 
intelligence and trying to determine how to further a case. 
What we are doing now and how we are changing and trying to 
combat the trafficking patterns that exist in the city, are to 
learn more about how the heroin market is constructed here, 
where do people go. What are the factors that affect where 
people go to get their heroine. And by understanding the market 
and understanding and attempting to constantly get current 
strategic intelligence that tells us about the overall market, 
we will be better able to focus our enforcement efforts. And as 
Mr. Carr says, we are no longer an agency that goes after the 
target of opportunity. We are an agency that has developed into 
an intelligence driven enforcement agency, and through 
strategic intelligence, we build our data base to let us make 
better decisions about how next week to send our agents and 
task force officers out onto the streets.
    Mr. Souder. Can you hear in the back? Are these mics on? I 
yield to Mr. Ruppersberger.
    Mr. Ruppersberger. Sure. The first thing, Mr. Carr and Mr. 
Grubbs, this stand, street crime versus the international drug 
ring so to speak, what do we know about the links between the 
street dealers and major known drug trafficking organizations 
that prey on Baltimore? Describe the heroin or cocaine supply 
chain in relationship between the little players and the big 
players and what our target is as it relates to both.
    Mr. Grubbs. Sir, what we are seeing in Baltimore is sort of 
the guy on the street who has $20,000 at any particular moment, 
and he gets in his car, and he drives up to New York, and he is 
lucky enough to give that $20,000 to a trafficker up there and 
receive heroin. The heroin then comes back down into the city 
and is distributed to any number of lieutenants that work for 
that gentleman and can sift down to street level distribution. 
The problem is that there are a lot of entrepreneurs, if you 
will, who can get $20,000 or have made significant profits, and 
make that trip up to New York or to Philadelphia, and bring 
heroin and cocaine back down here.
    Mr. Ruppersberger. But don't we have turf problems here, 
too, with respect to the different sides of Baltimore, and 
isn't it difficult for an entrepreneur, a small group, to come 
in and infiltrate?
    Mr. Grubbs. Absolutely, it is. But what happens is that 
someone within that organization, or someone who has been lucky 
enough, a lieutenant who has been lucky enough to save his 
dollars and cents can make that trip up to New York, and he can 
come back and often times go into that same area or the same 
turf whenever his boss or the person that he was working for at 
some recent past runs out of product. So because of the nature 
of the beast and the fact that people need heroin once or twice 
a day to sustain their habits, there is a constant re-upping 
shortages, re-upping, and it plays over, and over, and over.
    Mr. Ruppersberger. Let me ask you something about 
resources. Mr. Mayor, you might want to answer this, too. In 
prior testimony before this committee in the last month, there 
has been information that because of our war against terrorism, 
which we have to face and we have to target on, and especially, 
in the Baltimore area, where you have the port, you have BWI 
airport, you have a lot of key areas that are close to the 
capitol. But the concern that I have, and I would like to hear 
from all three of you on this, that we are taking a lot of 
resources away from drug enforcement, drug interdiction, and we 
are putting it into the area of terrorism, which we have to do. 
The issue that I see is that we need more resources for both. 
And it is a matter of priorities, basically, where you put your 
money. We have to deal with the issue of terrorism, but if we 
let the resources leave where they are with respect to drug 
interdiction, drug interdiction and the drug problem is a lot 
more serious problem and affects many more Americans in this 
country than the terrorism issue.
    Mr. Souder. Could I add an elaboration to your question?
    Mr. Ruppersberger. Sure thing, Mr. Chairman.
    Mr. Souder. It will be helpful to get specifics. Have you 
seen FBI agents moved off of narcotics in the city of 
Baltimore? Have you seen Customs agents in their investigations 
bureau not be able to followup on drug crime as much? Have you 
seen ATF people moved away from narcotics investigations? Have 
you had with the limited police force in the city, had to move 
police force over to Homeland Security concerns, and they would 
have been on narcotics?
    Mr. Ruppersberger. And Mr. Chairman, don't forget DEA 
agents, also. It is a softball, Mr. Mayor.
    Mr. O'Malley. It is a softball. And do you know what, the 
person who is in a better position to answer that down to a 
nuts and bolts level, and I will give him my time maybe when he 
comes up on the second panel rather than belabor it. I can tell 
you from our own standpoint, we have had to shift some police 
resources. We have had to create an intelligence unit of about 
30 police officers where we used to have 8 that do a lot of 
things of a homeland security nature. And I think what is 
important is you all look at the Federal level at deploying 
resources, is not to divide between, you know, your Bin Laden 
variety of terrorism and the foreign attacks of cocaine and 
heroin. I think our country has been under attack for a long 
time, but it wasn't until a lot of people, you know, sitting 
down to their coffee and their place of work and those horrific 
attacks happened all at once that we got shocked into this 
consciousness. But I would encourage you at the Federal level 
to consider the foreign attacks of cocaine, chemical attacks of 
cocaine and heroin, along with those other things when you do 
your threat assessment. That is what we do. But I do know 
Commissioner Clark is chomping at the bit to share with you 
what he has seen.
    Mr. Ruppersberger. Is that your phrase--foreign chemical 
attack?
    Mr. O'Malley. Foreign chemical attacks of cocaine and 
heroin. It is coming in here.
    Mr. Ruppersberger. How about you, Mr. Grubbs? I guess you 
can talk, specifically, about DEA?
    Mr. Grubbs. The Drug Enforcement Administration, 
immediately after September 11, provided a substantial portion 
of the work force for the sky marshal duties. They have all 
returned. We have all the DEA agents that are assigned and are 
supposed to be assigned to the Baltimore District Office 
working at the Baltimore District Office. Certainly, from a 
resource standpoint, we could always use more. But we 
understand that we have to work within certain means and we are 
trying to work smarter, as I said, through an investigative 
intelligence standpoint and making our investigations 
intelligence driven to get every last dollar we can from the 
generous budget that we get.
    Mr. Souder. Did you get any FBI cases switched over to you? 
They have been, basically, having to move more over. Their 
assignment from the President, directly, was to move more to 
other forms of Homeland Security, and I wondered what happened 
to those cases. Did they get assigned to DEA or what has 
happened?
    Mr. Grubbs. Two cases that the FBI was working, and one of 
them was jointly with the DEA here in Baltimore, have been 
given to us to finish up, yes, sir.
    Mr. Carr. In the HIDTA environment, we have not seen any 
diminution of Federal resources from the FBI, or Customs, ATF. 
They all have significant portions, or sizable commitments, I 
should say, involving different HIDTA initiatives. We have in 
HIDTA been working on traditional terrorist cases and narco-
terrorist cases prior to and since September 11. One of the 
bigger concerns that we have been working on is this concept of 
identity theft. And that involved with the use of telephone 
calling cards is one of the ways that I believe the terrorists 
involved in the World Trade Center communicated with each other 
and were able to carry out some of their secretive missions.
    Mr. Ruppersberger. Thank you, sir. Thank you, Mr. Chairman.
    Mr. O'Malley. May I add one thing to that, though, Mr. 
Chairman? And that is that the dollars that we are spending 
securing the airlines and the dollars we should be spending 
securing the ports, are all dollars that are part of the same 
fight. I mean, if you tighten up the security of the stuff 
coming into the port, you will keep out the dirty bomb and you 
will also keep out the cocaine and the heroin. So there really 
is a tremendous potential for double bang for the buck. I know 
lots of people say, oh, we can't defend every square inch of 
American soil, but when you know where most of it is coming 
through, and there are moneys you can spend, they would be 
moneys well spent. And if it took September 11 to shock us out 
of that lethargy, maybe that is the best tribute we can give to 
those Americans who died, is to tighten up the borders and 
actually start defending our country.
    Mr. Souder. There should be a synergy, but I am also on the 
Homeland Security Committee, and in particular, we are watching 
this diversion, and would like specific information if you see 
people pulled out of the HIDTA down the road as the mission in 
the Department of Homeland Security starts to organize and get 
themselves more of what the priorities are. We are also 
concerned about the Border Patrol and the investigations agency 
being reorganized inside Homeland Security, because if there is 
an attack or potential attack, that could divert tons of the 
investigation in the agency doing investigation over to those 
investigations and lose some of the pending narcotics cases. We 
do have the problem that you can either have a drug dog or a 
bomb dog, but you don't usually put two dogs on the same 
container. So we are trying to figure out--there are some 
synergies and some that aren't synergistic, and we need to be 
approaching both at the same time.
    Mr. Carr. If I could comment on that? One thing that gives 
us concern at HIDTA, as you all know, we have set up 
intelligence centers within HIDTA, where we have a watch, we 
have strategic intelligence, operational and tactical 
intelligence being generated and sent out to our initiatives. 
Yet, in the Homeland Security, they are talking about creating 
additional intelligence centers. I mean, how many watches can 
you have? How many strategic places can you have? As the mayor 
pointed out, this idea of searching the ports, looking for 
dirty bombs, while you are looking for dirty bombs, you can be 
looking for drugs. Why double everything? Why not combine those 
intelligence centers, use what is already there, because it 
takes a number of years to stand one up. They are using the 
same data bases, text, NCIC miles, whatever. It just makes 
sense not to create unnecessary duplication, and in doing so, 
now create the need for more manpower to run what is already 
there.
    Mr. Ruppersberger. Mr. Chairman? You know, you are right on 
there. There is equipment being developed. In fact, there is a 
group in Hartford County that I visited there at their plant 
where they are really focusing on biological and chemical 
weapons of mass destruction. Narcotics would come in the same 
category and they could pick it up at the same time. We are 
doing better than the rest of the country on the port. As has 
been said, I think the national average is 2 percent; we are at 
6. We have a long way to go, but there is technology that is 
there. We just received some equipment about 6 months ago that 
is doing a good job in being able to detect what we are looking 
for in that regard, but it is just a start. And the equipment, 
I believe, was about $1.5 million. There is no reason why we 
can't establish more equipment to go to that port.
    Mr. Souder. Mr. Cummings.
    Mr. Cummings. Yes. One of the things when talking to 
prosecutors, they tell me that so often when their cases become 
very difficult to prosecute because they basically have to 
almost hold witnesses' hands to get them to the courthouse 
because they are afraid. The witnesses are afraid. When I go to 
community meetings, I often hear people say, I want to 
cooperate, I want to call the police, I want my neighborhood to 
be better, but you know, I don't want to be harmed. And I am 
just wondering how much focus--I mean, those charts you just 
showed, you talked about the areas, the various areas, the city 
that had been targeted, and I applaud you for your progress. 
But I am wondering, you know, the Dawson family seemed like 
they were in a lot of stress. They made numerous calls. I think 
the police did what they could, but apparently, the police 
couldn't be there every minute to watch over them. And I am 
just wondering, how do you all suggest that we deal with that, 
because I am going to tell you, if you don't have that 
cooperation, you have major problems. And so I just wanted to--
Mr. Carr.
    Mr. Carr. Well, as you pointed out in your comments, people 
don't like to be moved out of their own neighborhood, and that 
being the reward for them testifying in court against illegal 
activity going on. And we also know from other programs that 
even if you do move them out, they are going to come back, 
because that is where their ties are, and when they come back, 
they are vulnerable. I know that--I think Commissioner Clark, 
when he testifies, can talk to things or ways that could be 
perhaps reduced or resolved. But one thing that would be 
helpful would be some type of tip line or anonymous hotline, 
that people could call in and preserve their anonymity, and 
yet, still pass on the actionable information intelligence to 
the police. Once those people become, their true identity 
becomes known to the criminal melee in the area, then their 
safety is at risk, I mean, either through intimidation or 
actual acts against them.
    Mr. Grubbs. Far too often, we also deal with witnesses who 
are intimidated. And when that occurs, in cooperation with the 
U.S. Attorney's Office, we act as quickly as possible: to first 
remove the person from the threat; second, determine the scope 
of the threat; and then third, to gather evidence that we can 
present to a grand jury and see if we can get an indictment for 
witness tampering. In a case that we have recently done in the 
very near past, we did just that, and this all--the process 
started on a Wednesday, and the persons responsible for those 
threats were arrested the following Tuesday. We used, as you 
are well aware, the witness security program, which is the U.S. 
Marshals' sponsored program where new identities are gotten and 
people actually move. We also avail ourselves of the Victim and 
Witness Assistance Program in conjunction with the U.S. 
Attorneys Office. And we also have a certain amount of 
discretionary funds that we have access to immediately to at 
least temporarily move the person to, for instance, a hotel, 
out of harms way until we can determine what the scope of the 
threat is.
    Mr. Cummings. Is that just in Federal cases?
    Mr. Grubbs. It is in any case that any of the officers, 
task force officers, or agents that are assigned to the 
Baltimore District Office can avail themselves of that.
    Mr. Cummings. In other words, if Commissioner Clark has a 
situation where he is trying to get this case through, and he 
has 4these witnesses who are being intimidated--in other words, 
does it have to be a task force case problem?
    Mr. Grubbs. Yes, it does. Technically, sir, it has to be a 
task force case. I am only authorized to spend money on task 
force cases. But if Mr. Clark has a case that he thinks needs 
those kinds of discretionary funds made available, then he can 
certainly through the officers, the many officers that he has 
dedicated to our task force, have us adopt a case and then move 
from there.
    Mr. Cummings. I just want to make sure that we are, you 
know, using this city as--I mean, we have limited funds, and 
the mayor is doing the best he can with what we have. We are 
highly taxed, and like a lot of other cities, and we need the 
resources from the Federal Government. Of course, we need them 
from the State, too, but we need them from the Federal 
Government, and I was just wondering, you know, just how far 
that goes. I just want to make sure that we are, as a city, 
that we are doing everything that we can to get the money from 
you all, and that you all are doing everything that you can to 
help us out. Mr. Mayor, did you have something? I see you are 
taking notes.
    Mr. O'Malley. Yes. Congressman, I just wanted to point out 
I have had conversations with our States Attorney, and I have 
told her that whenever somebody needs protection, she should 
not consider herself bound by, you know, the petty cash line 
item in her budget, that we have a rainy day fund, and we will 
do whatever it takes to protect witnesses. Now, we don't have 
the same array of tools and resources for relocation and the 
like that the Federal Government does, but we will go to great 
lengths to do whatever we can to protect witnesses. I want to 
thank the Federal Government for being more amenable to taking 
some more of our locally developed drug cases federally, 
because that does a couple of things for us. I mean, it helps 
us, but then we can avail ourselves of those sorts of 
resources, but it also has with it the assurance of 
prosecution. There is a much greater assurance of prosecution 
in the Federal system than there is in our overcrowded State 
system. And there is nothing that intimidates the bad guys more 
than knowing that there is a flow of cases, that there is a 
potential for a case to go Federal, and it also helps us--it is 
like the Golden Fort Knox of what had long been a very 
depressed currency of plea offers in the overwhelmed city of 
Baltimore and in our local court system. To know that there is 
the Federal prosecution, now much more Federal prosecutions on 
gun cases, a willingness to take more prosecutions in terms of 
narcotics, investigations as we improve our ability to increase 
those.
    So I know you ask questions about how many Federal 
officers, how many FBI agents are working on drugs or have been 
taken off drugs. If you open the Federal courts to us so we can 
take our cases Federal to qualify, that is--maybe Commissioner 
Clark has some different opinions on that, but that is one way 
to offset whatever knock we are seeing from the FBI coming out 
of narcotics enforcement. If you can open up the assurance of 
prosecution to us on our local cases, that is what helps the 
whole issue of witness intimidation. And Congressman Cummings 
knows that in our city, I mean, we are breaking a culture of a 
lack of prosecution for many, many years, and that doesn't 
happen overnight. But truly, the assurance--I just want it 
underscored--it is the assurance of prosecution that can have 
every bit as much of an effect on instilling confidence in the 
minds of witnesses. People are more willing to be a witness in 
a case going Federal than they are in a case going State, which 
is not to say that there aren't still the same threats, but the 
level of assurance of prosecution gives a higher sense of 
confidence and courage in people that they are going to make a 
difference by coming forward.
    Mr. Cummings. One thing is for sure, after practicing for 
many years, if you have the force of the U.S. Government behind 
those Federal prosecutions, and there is a lot more resources, 
I think people--I agree with you. They look at it much more 
seriously. I think the criminal element, when it is a Federal 
case, I mean, they begin to tremble. Can you put up that chart 
again? The one that showed the three areas? Keep going. It is a 
map. That one. Now, on this map, where is this area where the 
Dawsons----
    Mr. Carr. No. 3.
    Mr. Cummings. No. 3?
    Mr. Carr. Right here, yes, sir.
    Mr. Cummings. You know, I thought the stats were very good 
on the various areas that you talked about. How do we assure 
that we keep that kind of intensity going, though? I think what 
people worry about is that we will have intensity, and then the 
intensity will, you know--I mean, after everything is sort of--
--
    Mr. Souder. Is Saddam coming back?
    Mr. Cummings. Yes. I mean, so how do you----
    Mr. Carr. That is a good question. I can tell you that if 
you don't keep your intensity, Saddam will come back. It 
happens over and over again, and the mayor can, I am sure, talk 
to that. But it is not just--as I was pointing out, it is not 
just law enforcement. We have to improve the infrastructure of 
the community. We have to provide services for treatment and 
drug prevention in those areas if we are going to make a 
difference. We have to break this cycle of drug addiction and 
violence over there and it is not going to happen overnight.
    Mr. O'Malley. I think it is a great segue to our police 
commissioner.
    Mr. Cummings. That is very good. I just want to make sure 
that we don't get to a point, Mr. Chairman, where we--you know, 
we have the intensity, and that we let that intensity go before 
all that stuff that you just talked about is brought in. And 
thank you all very much.
    Mr. Souder. These are huge problems at the Federal level. 
We did a hearing in El Paso just--I think it has now been about 
2 months ago. They are so crowded with the amount of illegal 
narcotics coming across the border that the HIDTA and the 
Federal task forces don't deal with cases under 100 pounds, the 
local police don't deal with under 20 pounds, and they have 
2,000 criminals locked up, of which 1,900 and some in the 
county jail are not intended for El Paso. They are headed to 
the rest of the country. The scale of these problems are huge. 
And the other philosophical challenge we have in Congress is 
that we have steered more and more toward breaking up the 
networks and the larger dealers and the sub-dealers, and less 
on the street level enforcement. Now, some cities will focus on 
street level enforcement and kind of go back and forth with 
this.
    But what we hear constantly, whether it has been in Los 
Angels on the street, or in public housing in Chicago, or St. 
Louis, or my hometown of Fort Wayne, is that we told the police 
department and they didn't followup. We are getting two things. 
One is you have to be able to prove a case. You can't just haul 
a person off. And the second thing is that sometimes the focus 
is trying to figure out who those people are dealing with. But 
if you are in the neighborhood and you feel intimidated by this 
person who might be a low level dealer but might kill you, then 
you are not going to talk. And this is our dilemma because if 
we don't do the street enforcement and the sweeping on the 
lower level crimes, we don't get the cooperation which will 
lead us to the larger. And we kind of go back and forth as a 
society. Are we focusing on the user, in effect, or the bigger 
dealers, and it is a huge dilemma.
    Mr. Carr. Can I point out one more thing, a crucial thing 
in that? I don't know of a Federal SAC or ASAC that has ever 
been moved because crime went up or down in their area. I don't 
know a chief of police that ever kept his job and crime kept 
going down. And what I am saying is that when our citizens call 
us, the Federal Government can decline cases. State and locals 
can't decline; they have to investigate. And all too often, 
what we hear is this--the biggest seizure ever made, the 
biggest drug trafficking organization ever taken down. We lose 
our credibility with the citizen when they see little Johnny 
still standing on the street corner dealing drugs. We can't 
just keep our focus on high level major organizations. There 
has to be a proper mix and concern with street level 
enforcement.
    Mr. Souder. Well, I thank the first panel for their 
testimony. It has been very helpful. And we will now move to 
the second panel. We have defective cables on the mics. They 
are trying to work out what we can with the speakers. So we 
apologize, it has been difficult to hear. We will take a brief 
recess while they work on the----
    [Recess].
    Mr. Souder. If the second panel could come forward, it is 
Mr. Alan Woods, Mr. Kevin Clark, Lieutenant Colonel David 
Czorapinski, and Mr. Anthony Romano. And we would ask each of 
the witnesses, when you testify, to get the mic reasonably 
close so they can adjust it. It is just a larger mic. I also 
want to apologize to Lieutenant Colonel David Czorapinski, who 
I have been trying to pronounce the ``C'' in front of his name, 
for which I apologize. First, we are going to hear from Mr. 
Alan Woods, director of the Governor's Office of Crime Control 
and Prevention. I have to swear the witnesses in. If you will 
each raise your right hands?
    [Witnesses sworn].
    Mr. Souder. Let the record show that each of the witnesses 
responded in the affirmative. Mr. Woods.

STATEMENTS OF ALAN C. WOODS III, DIRECTOR, GOVERNOR'S OFFICE OF 
  CRIME CONTROL AND PREVENTION; KEVIN P. CLARK, COMMISSIONER, 
 BALTIMORE CITY POLICE DEPARTMENT; LIEUTENANT COLONEL DAVID W. 
 CZORAPINSKI, CHIEF, MARYLAND STATE POLICE, OPERATIONS BUREAU; 
 AND ANTHONY ROMANO, CHIEF, ORGANIZED CRIME BUREAU, BALTIMORE 
                     CITY POLICE DEPARTMENT

    Mr. Woods. Thank you, Congressman Souder, Congressman 
Cummings. Is that a little better? Thank you for asking me here 
today. It is a privilege to have the opportunity to speak on a 
topic so vital to the citizens of both the State and the city. 
I deliberately mention both the State and the city because the 
problems created by substance abuse are not confined to a 
single jurisdiction. They, clearly, affect the State as a 
whole.
    The statistics I kept when I was the chief of 
administration at Baltimore Substance Abuse Systems, showed 
that over 7 percent of the patients in treatment in our 
publicly funded city treatment slots came from the surrounding 
jurisdictions. Dr. Luongo, head of the State Alcohol and Drug 
Abuse Administration, tells me that his figures show that the 
true figure is over 10 percent. City police sting operations 
reported in the Sun over the past 3 years have, at times, 
netted heroin buyers over 30 percent of whom came from outside 
the city. There have been teenage overdoses reported in Carroll 
County, a rural jurisdiction which now has a residential 
treatment facility for youth. So you see that the problem you 
discuss here today, although publicized here in Baltimore 
because of the Dawson tragedy, is actually regional in scope.
    That is why your proposal to approach this issue through 
the HIDTA is, frankly, completely appropriate. As Director Carr 
showed you, the HIDTA is data driven, and in this area, it runs 
from the Pennsylvania line to northern Virginia. The 
organization is uniquely situated to use the data they collect 
to concentrate the resources appropriately, proportionate to 
the severity of the problem throughout the region. HIDTA could, 
therefore, allocate funds in accordance with the depth of the 
problem here in Baltimore while simultaneously encouraging 
cross-jurisdictional efforts and appropriate actions in other 
jurisdictions. HIDTA also has a long history of cooperation and 
collaboration with State and local authorities in the spirit of 
Governor Ehrlich's Executive Order No. 1, which requires such 
collaboration on the part of his employees. I applaud this plan 
for the distribution of the resources you all propose.
    Now, the issue itself was described in papers sent to me as 
an exploration of ways to assist State and local governments to 
protect citizens who cooperate in anti-drug law enforcement 
efforts. The most frequent example given is that of anti-drug 
hotlines to maintain anonymity. I fully agree with such 
efforts, and that example has proven itself, that idea of 
anonymous hotlines has proven itself over and over again in 
prior situations. The thrust of my comments here today would be 
to hope that the initiative would not be limited to merely an 
anti-drug hotline, leading merely to additional police 
officers. The problem goes much deeper.
    I have been in law enforcement one way or another over 30 
years, and I have watched the schism between law enforcement 
and some neighborhoods grow deeper and deeper. This is 
particularly true and particularly tragic in the neighborhoods 
where the so called street culture is most dominant. Mayor 
O'Malley mentioned it to you a moment ago. Generations of 
children taught that they don't count, taught that it is OK to 
kill because their lives don't matter. Where that culture is 
most dominant is where there is the least cooperation between 
law enforcement and the community, where protection resources 
are most needed, where they are least likely to be effectuated 
simply because of the lack of communication. Law enforcement 
from police to prosecutors, to courts, to substance abuse 
treatment efforts cannot operate effectively without community 
input, support, and information. This is least available where 
the need is greatest, and clearly, a hotline and additional law 
enforcement resources would provide minimal communication and 
would be a necessary first step toward improving the situation.
    There are other methods. They include encouraging community 
organization, providing meeting places, supporting regular 
meetings as avenues for community consensus to be gained, and 
providing methods for expression of those opinions to law 
enforcement, treatment, and other authorities. There have been 
such efforts in the past. The city's Police Community Relation 
Councils have done very good work in the past, especially, to 
counter the impression in some areas that police are an 
occupying army. That impression, by the way, is an offense to 
every police officer I have ever worked with.
    The State's Attorney's community representatives in 
Baltimore City have also provided communication channels for 
organized neighborhoods and so has the mayor's office on 
communities and other such organizations. At one time or 
another, my present office has supported several such efforts 
within the limits of grant funding cycles. The lesson learned 
has always been the same, that a community which is organized, 
strong in participation, and works together with law 
enforcement and government can provide self-protection by 
aggressively combating its criminal elements and the 
contributing conditions. Such a community can more safely 
collaborate with State and local law enforcement efforts and 
substance abuse treatment and prevention efforts, and can thus 
more readily access the resources available.
    One of the most important elements in some of our present 
programs, the Collaborative Supervision and Focused Enforcement 
Program, is community representation on the action teams and 
community participation in achieving an action plan tailored to 
local circumstances. The same is true for my agency programs 
funded through the Local Management Boards such as the 
Consolidated Youth Strategies Initiative.
    I would hope, therefore, that the interpretation of H.R. 
1599 is not limiting. While any drug hotlines and the efforts 
you propose, additional police officers, in particular, are 
clearly a good start, it is likely that additional good ideas 
will be generated as this effort proceeds. Where such ideas are 
intended to strengthen community organizations and enhance 
neighborhoods' abilities to act together within themselves and 
with local law enforcement, I would hope that they could be 
supported by the proposed or other funding. There are good 
people in these communities. We should listen to them. And I 
thank you for listening to me.
    [The prepared statement of Mr. Woods follows:]

    [GRAPHIC] [TIFF OMITTED] T1837.014
    
    [GRAPHIC] [TIFF OMITTED] T1837.015
    
    [GRAPHIC] [TIFF OMITTED] T1837.016
    
    [GRAPHIC] [TIFF OMITTED] T1837.017
    
    [GRAPHIC] [TIFF OMITTED] T1837.018
    
    Mr. Souder. Thank you very much. Commissioner Clark.
    Mr. Clark. Good morning, members of the Subcommittee on 
Criminal Justice, Drug Policy, and Human Resources. Thank you 
for making the trip to Baltimore to learn about our work toward 
the eradication of drug markets and the Baltimore Police 
Department's dedication to the renewal of this great city. I am 
Commissioner Kevin Clark and I have had the privilege of 
leading the Baltimore Police Department since February 2003. 
Prior to coming to Baltimore, I served as the executive officer 
of the New York City Police Department Narcotics Division, 
where I supervised the operation and administration of the 
2,400 members assigned to the highly effective division.
    Throughout my 23 years in law enforcement, I have learned 
that there is a definite nexus between the narcotics trade, 
violent crime, and its ability to undermine the quality of life 
we all desire for our families, and particularly, our senior 
citizens and children. We have to take on the narcotics trade, 
the violence, and the pervasive conditions that lead to the 
declining quality of life, and we can't do it alone. The police 
cannot do it alone.
    Partnerships with the Federal Government are invaluable for 
families like Angela and Carnell Dawson and their five 
children, 9-year old twins Keith and Kevin, 10-year old 
Carnell, Jr., 12-year old Juan Ortiz, and 14-year old LaWanda 
Ortiz, who perished in the fatal arson on October 16, 2002, 
martyrs in the fight to keep their neighborhood free from 
harassing and intimidating drug lords. Through the coordination 
and leadership provided by HIDTA, we have made great strides in 
the sharing of critical intelligence and data which continues 
to assist us in developing our successful strategies. Today, 
the women and men of the Baltimore Police Department, both 
sworn and nonsworn, together with the people's support, have 
achieved the sharpest reductions in violent crime of any big 
city in America. According to the FBI's preliminary uniform 
crime reports, Baltimore has achieved a near 26 percent drop in 
violent crime since 1999.
    The funding that you provided to Baltimore in the wake of 
the Dawson family tragedy has been used effectively to support 
strategic and tactical enforcement. These tactics have enabled 
the Baltimore Police Department to achieve unprecedented 
reductions in crime in our three established target areas. The 
charts contained in the materials provided tell the stories 
about these victories. In the target areas, there has been a 17 
percent decline in violent crime from December 1, 2001 to May 
31, 2002, versus the December 1, 2002 to May 31, 2003. 
Additionally, in the target areas, there has been a 19 percent 
reduction in property crime over the same period. We have seen 
some of our biggest successes in these target neighborhoods in 
the reductions of shootings and homicides.
    The ``forever change'' that Mayor O'Malley spoke of in the 
days following the Dawson family tragedy has begun. With your 
support, we have met and exceeded the goals set under this 
initiative. This proves that with the assistance of HIDTA and 
the White House Office of National Drug Control Policy, hard 
work, motivation, and leadership can turn around our 
communities. And I don't want to forget our most important 
partner, the law-abiding citizens who now reside in the eastern 
and western districts of Baltimore.
    Of note, since the initiatives have begun in our target 
areas, we have arrested over 775 street level drug dealers and 
over 275 CDS buyers; developed 47 confidential informants; 
seized over $100,000, more than 25 vehicles, and intercepted at 
least 10 CDS shipments; and we have identified and dismantled 
local and major drug trafficking organizations. These are not 
small accomplishments. Chief Anthony Romano and his organized 
crime division are highly motivated, responsive law enforcement 
professionals who are leading the way for the rest of the 
city's continued crime decline and improved quality of life.
    As the year progresses, we will continue a solid decline in 
crime in the targeted areas and we will strive to exceed all 
goals identified in the targeting initiative proposal. Most 
importantly, we will continue to work with the communities of 
Baltimore to take back their streets, neighborhoods, and 
communities from the Judas drug dealers and assure that the 
Dawson family's hopes and dreams will never be forgotten. Your 
investment has been a sound one. Thank you again for your 
assistance and we look forward to many more productive Federal-
local partnerships in the future. Thank you.
    [The prepared statement of Mr. Clark follows:]

    [GRAPHIC] [TIFF OMITTED] T1837.019
    
    [GRAPHIC] [TIFF OMITTED] T1837.020
    
    [GRAPHIC] [TIFF OMITTED] T1837.021
    
    [GRAPHIC] [TIFF OMITTED] T1837.022
    
    [GRAPHIC] [TIFF OMITTED] T1837.023
    
    [GRAPHIC] [TIFF OMITTED] T1837.024
    
    Mr. Souder. Thank you. Colonel Czorapinski.
    Chief Czorapinski. Mr. Chairman and members of the 
committee, good morning, and thank you for inviting the 
Maryland State Police to be a part of this forum. We are very 
well aware that the reason we are here is because of the death 
of the Dawson family back in October 2002, for retaliation in 
their support of the Baltimore Police Department to combat 
drugs and the violence associated with it in their own 
neighborhood. The assassination of the Dawson family was 
planned as a warning to concerned citizens in Baltimore which 
echoed across the State, that cooperation with law enforcement 
agencies brings with it the potential for a horrible sacrifice.
    What those responsible for this tragedy did not realize, 
however, was the outrage and support from law enforcement, 
citizens, and elected officials that resulted from their 
actions. Although the Dawson family was destroyed, their loss 
was certainly not in vain. Their attempts to rid their 
neighborhood of drugs and violence and the attention their loss 
generated convinced other citizens to continue the battle of 
narcotics distribution and the violence with it, rather than to 
admit defeat to it.
    When this tragedy occurred, the citizens of Baltimore were 
very fortunate to have a mayor, police commissioner, and 
Congressman who were able to quickly mobilize resources at the 
local, State, and Federal levels to address this problem. The 
result of their efforts became the Baltimore Targeting 
Initiative under the direction of ONDCP with the Baltimore-
Washington HIDTA, and the Baltimore Police Department.
    What they were able to do is to identify neighborhoods that 
called for enhanced street level narcotics enforcement. With 
the identification of such targets and the additional funding 
that was provided, they were able to coordinate investigative 
case information city-wide and improve their investigative 
effectiveness. From a State-wide standpoint, this problem is 
not unique to Baltimore City. Unfortunately, there are 
neighborhoods throughout Maryland where residents aren't able 
to live unhindered because of narcotics distribution and the 
violence and other criminal activity associated with it. We 
have already heard Carroll County mentioned. It is said to say 
that we get reports of heroin distribution now in the lower 
shore and as far west as Cumberland.
    These neighborhoods in these areas of the State also 
contain families just like the Dawsons who willingly cooperate 
with local and State law enforcement agencies. Law enforcement 
cannot work in a vacuum. We must have the assistance of 
concerned citizens to address the problem of narcotics 
distribution and the violence associated with it. If these 
families are convinced they will not be safe from retribution 
for the cooperation, they will certainly be reluctant to take a 
stand and to continue the fight.
    As a State-wide law enforcement agency, the Maryland State 
Police manages and provides investigative resources to local 
narcotics task forces, most of which are outside the local 
metropolitan area. The Maryland State Police has been an active 
participant in the Washington-Baltimore HIDTA and has 
investigators assigned to their task forces managed by both the 
Drug Enforcement Administration and the FBI. The Department is 
aware that cooperation of all levels is required in order to 
adequately address narcotics distribution and the violence that 
comes with it.
    We are also aware that we have a role as a traffic 
enforcement agency and have a unique opportunity to address the 
importance of narcotics coming into Maryland, particularly, 
into Baltimore City. As a result, a core group of highly 
trained troopers has been assigned the task of identifying and 
apprehending narcotics traffickers that use Maryland's 
interstate highway system to deliver their product. The I-95 
corridor, which has already been mentioned once today, is a 
major drug route from Florida to New York and goes directly 
through Maryland. The Maryland State Police is in a position to 
intercept and alleviate the flow of drugs along this heavily 
traveled section which also passes through Baltimore City.
    In May of this year, the Interstate Criminal Enforcement 
Team was formed. This team of investigators, since its 
inception, has taken off more than 40 pounds of cocaine and 
marijuana, more than 2 pounds of high purity heroin, more than 
$130,000 in drug money, several guns, and several cars with 
specially built compartments to aid in smuggling. Our troopers 
have learned through further investigation that several of the 
intercepted drug shipments were headed to Baltimore and other 
Maryland communities. Just recently, the team stopped a load of 
14 pounds of pure cocaine that was on its way to the streets of 
Baltimore. By the time that amount had been cut for street 
level sales, it would have amounted to 100,000 doses for use on 
the city streets.
    Having these drugs already intercepted by the team 
represents a significant amount of misery, addiction, and death 
that has already been diverted from the streets of Baltimore. 
Our efforts in this initiative are coordinated with local and 
Federal agencies to ensure the distribution of narcotics in 
Maryland can be diminished. At the very least, narcotics 
distributors are quickly becoming aware that Maryland troopers 
are searching for narcotics importers and we will not allow our 
highways to be used for such endeavors.
    The Maryland State Police welcomes and supports both 
Chairman Souder and Congressman Cummings for their visit to 
Baltimore and their bipartisan efforts to address law 
enforcement and community needs for citizens involved by 
drafting the Dawson Family Community Protection Act. By 
providing funding to communities nationwide to establish 
anonymous drug tip hotlines or similar measures is certainly a 
first step to ensure that law enforcement agencies and citizens 
continue to battle narcotics distribution and violence related 
to it. And just perhaps, as always, through these beginning 
efforts, that maybe one other family won't have to bear the 
tragedy that the Dawson family did. Thank you.
    [The prepared statement of Chief Czorapinski follows:]

    [GRAPHIC] [TIFF OMITTED] T1837.025
    
    [GRAPHIC] [TIFF OMITTED] T1837.026
    
    [GRAPHIC] [TIFF OMITTED] T1837.027
    
    Mr. Souder. They you very much. I will yield to Mr. 
Cummings to start the questioning.
    Mr. Cummings. Thank you very much, Mr. Chairman, and I want 
to thank all of you for your testimony. Commissioner Clark, let 
me ask you, how would you characterize the level of cooperation 
between your office and the Federal Government right now?
    Mr. Clark. Right now, I am satisfied with what I have seen. 
We have had to reorganize some of our--part of our department 
that would specifically be focused on the narcotics trade that 
affects Baltimore City. And how we did it, of course, we are 
attacking it from the ground level and from the upper levels of 
organizations. And the DEA is involved, the ATF is involved, 
Customs, so we have a number of Federal agencies that are 
working very closely with us in our focuses on really getting 
at the root causes and suppliers and those who are making money 
from narcotics. So at this time, I am satisfied with what I 
see.
    Mr. Cummings. I take it that when you were in the New York 
Police Department, you would have had knowledge of the 
relationship between the Federal Government and the New York 
City Police Department?
    Mr. Clark. Yes.
    Mr. Cummings. How would you compare or contrast?
    Mr. Clark. What happens, New York is the big location, so 
you are probably going to see more focus there, bigger cases, 
more media, etc., and there is probably a more target-rich 
environment. And places like Baltimore become a secondary level 
of importance. Where, in fact, because of September 11 and 
because of the number of people who are focused on New York, 
you are not paying attention to the backyard, and a lot of 
stuff may just be coming right through here, unloaded here, 
driven off to New York. So instead of everybody looking for the 
big homerun, we have to take a step back and look at cities 
like Baltimore, which is a big city, a big port, 95 runs 
through it, all the points that go east and west in this 
country, and I think this is a major location just by the level 
of narcotics that I see here, that is distributed here, that 
maybe the homerun--let us get a couple of singles and doubles, 
and maybe we will see a bigger effect even in locations outside 
of the area of Baltimore.
    Mr. Cummings. A little earlier, the chairman and 
Congressman Ruppersberger were talking about questioning others 
about this whole idea of September 11 and, you know, taking 
away resources. The chairman and I worked together when we were 
crafting the homeland security bill to make sure that there was 
a person in the Homeland Security upper echelon, I guess to 
describe it, who was--we were afraid of the same thing, that 
resources would be taken away from drugs, from actually dealing 
with drugs, because everything would be shifting to Homeland 
Security in the sense of protecting us against terrorists. And 
so we made sure there was a person whose responsibility was to 
make sure that didn't happen.
    And I think, you know, as I was listening to some of your 
testimony, I was wondering, when you all have--and I listened 
to the mayor. A lot of times it seems like you run into 
situations like the Fourth of July. All of you said that you 
were doing the various surveillance and making sure everything 
was checked out, and making sure the harbor was as safe as you 
could make it. How does that effect, if at all, your duties in 
dealing with drugs in, say, the local area?
    Mr. Clark. Well, sir, since September 11, law enforcement, 
particularly at the policing level, has actually expanded into 
areas that none of us ever expected. Rather than being the 
commissioner and worrying, are we going to have one homicide, I 
now have to worry is somebody going to strap a bomb to 
themselves and kill 30 people all at one time. So it is a whole 
different mindset. It does put a strain on resources because 
the general public is highly concerned and educated on the 
foreign terrorism aspect that did reach our shores. At the same 
time, our domestic terrorists are the ones that walk amongst us 
every day, and it does put a strain on personnel. It can affect 
morale because of longer hours that people have to work. It has 
a dramatic effect on budgets. You have to become very, very 
smart about the way we spend money and how we move our 
equipment.
    So we are in this dilemma for now, and I believe as the 
years go by, hopefully, there is some remedy that comes to it. 
But you almost have to pick what is going to be your primary 
focus as some of these symbolic days come up. Do we move away 
from the domestic terrorist to worry about an international 
attack or do we just focus? And if we get hit, then it is going 
to be emotional. Everybody thinks about the economic effect of 
these attacks. It is the lingering emotional effect on the 
American psyche that is important. So you know, it is a big 
balancing act that we have to do. And here in Baltimore, I 
think we do a very good job.
    Mr. Cummings. Speaking of balance, one of the things that 
we struggle with in the Congress is this whole balance of 
treatment and law enforcement. I think that we pretty much come 
to an agreement that you have to have both. And you know, when 
we see African-American males in this city, in this State, you 
see so many locked up, and it concerns a lot of people. And 
there is an argument that goes on in Congress as to how do you 
spend less time and effort arresting and putting away the user 
is so happens to have some in his possession as opposed to the 
people who are actually the salespersons. And I think it seems 
to me that law enforcement, and I know Mayor O'Malley has been 
very clear on this because as much as he is hard on the dealer, 
I know he is working just as hard on trying to find resources 
for treatment because we talk about it all the time.
    So where do you, as a law enforcement office in a city that 
has the kind of problems that we have--I mean, where do you 
fall in there? Do you share that view that you have to have 
both, or should there be balance, or do you follow me?
    Mr. Clark. The best way I can explain is the strategies 
that were employed by this Department from the year 2000 up 
until my arrival in 2003, a correct remedy at that time because 
of the violence and the open-air drug markets that existed, you 
had to attempt--and the terminology I think we are all aware of 
is arrest your way out of the problem. And we know that is 
temporary. It can have an effect, but it is costly and its 
effects will wane at some time. My philosophy is to arrest my 
way to what the core of the problem is, and those are the 
people who are the profiteers, who are making money from it.
    And you know, in the beginning, you are going to have to 
get through those who are probably addicted, who are being used 
again as the frontline sales persons for those who are making 
millions and millions of dollars and hide in the background and 
manage these locations. We have to get through them first. That 
is where the cooperation of all levels of the chain of law 
enforcement, from the prosecutors to the judges, that we get 
through them. I know it is looked at as a nonviolent crime in 
this city, but let us go back to where is that money going to. 
Is it paying for terrorism? Is it paying for more guns coming 
on our street? So I have to fight my way through those who 
probably would best be helped in some type of rehabilitation to 
get at those who are using them, those who keep us in terror in 
this city, those who are profiting and living very well. So I 
have to get to those individuals, but there has to be some real 
treatment that has some sanctions involved if you do not 
cooperate with the treatment on the long term. There has to be, 
of course, some goal for that person who is going to be 
involved in the treatment to keep them working toward. It is an 
everyday thing for them.
    So I am a believer in that end of it. But on this end, my 
focus in Baltimore is I want to get at these people who are 
making money from this stuff. I want to take their money, I 
want to take their cars, I want to take their houses. I want to 
take everything they have and hold them up as an example to 
everyone that if you want to get in the game, there is going to 
be heavy--I will look for everything that they have, to take 
it, other than just taking some dope off the street. They are 
rich, they are making money, so we have to get at everything 
that they have.
    Mr. Cummings. But you do believe in Treatment?
    Mr. Clark. Yes, I do. I am sorry. You got me going.
    Mr. Cummings. That is all right. I can feel it. Just one 
other thing. I have numerous, but I have to ask you this one. 
We just had a major hearing on Friday on methamphetamine, and 
we just wanted to know what are you seeing--and maybe you guys 
can answer this too--what are you seeing in our area? It just 
seems like the methamphetamines are taking off, coming from the 
west coast--I mean, coming our way. And I was just wondering, 
have you seen any signs of that in the Baltimore area?
    Mr. Clark. Well, I believe they had a large seizure about a 
year ago. Right? Was that Barksdale? Yes. One of our units had 
a very large seizure. It was coming from the west coast. But 
you know, when you look at drugs, it is always traditional, 
what their custom base wants. It may not take off that much in 
the inner city, but probably in the surrounding areas around 
the city. And if you don't address what happens in the city, 
then as the hole in the doughnut, the rest of it will go 
rotten. So they are going to look for their customer base where 
it is going to be popular. But here it is still going to be 
heroin, still going to be crack, still going to be marijuana, 
and the other thing, alcohol.
    Mr. Cummings. Well, I want to thank you and I want you to 
know that we want to do everything in our power to help you do 
your job, and we are really very pleased to have you here in 
Baltimore.
    Mr. Clark. Thank you very much.
    Mr. Souder. I thought it was really interesting, your 
comment on the homeruns. I could tell I am not in New York and 
that the Orioles are having a very tough season. I wonder if 
that is the whole psyche here, that they are doing the singles 
and doubles and somehow manage to stay competitive. Mr. 
Ruppersberger.
    Mr. Ruppersberger. Well, if you are going to talk about the 
Orioles, they have done well in the last week, very well this 
last--what--seven games. Let us get to the issue at hand. The 
first thing, the issue of--and Congressman Cummings was talking 
about drug treatment, and the mayor talked about that, and we 
understand that it is a multifaceted issue to deal with all the 
drug problems that we have. One thing that we haven't talked 
about, and I just want to get your opinion, and then I want to 
get into the Dawson issue. The issue about the juvenile crime, 
but more importantly, programs that will take, basically, inner 
city children, PAL program, programs that we can get these 
children off the streets, have role models, working to avoid 
the peer pressure to get to the level. I know that in Baltimore 
County when I was county executive, we put a PAL program on 
every precinct, some two, and we did things such as giving 
karate programs to get the tough kids. I mean, a lot of the 
tough kids might not go to a PAL program, but if you tell them 
that they are teaching karate, they might come. And once you 
get them, you hook them, you teach them values and you work 
with them.
    What is your opinion, being a law enforcement expert in New 
York, and now as commissioner, about the issue with respect to 
juvenile and youth as it relates to the drug interdiction?
    Mr. Clark. Well, right now, the trend is that the people 
making money from it are now taking advantage of our kids. They 
understand that there is a vulnerability in the juvenile 
detention, the laws that regulate kids, that it is kind of like 
a revolving door. So they are destroying these young people's 
lives. I mean, we are seeing people brought in for sale of 
narcotics, 12 years of age, in the city. And as a result, when 
they fail, or lose money, or have a problem, they wind up as 
victims on our street. So we really have to look clearly at are 
the juveniles victims? Most people look at them as victims. 
They say if we put them in the system, they are going to get 
worse. They get worse on the street. We have to look at the 
people who are using them and we have to really punish those 
people severely, as they have taken a young person's life. The 
youth programs, it is critical that we reach the low risk kids 
and the medium risk kids quickly, before they jump over the 
fence of----
    Mr. Ruppersberger. But since you have been here, do you 
feel there are enough resources going into those programs or 
can we do better?
    Mr. Clark. I think the coordination can be better, the 
communication, that we know exactly what everybody has to offer 
to each case. There are a lot of people out here who are really 
engaged in what we are talking about now. It is just a matter 
of us networking so we know exactly who can give us what----
    Mr. Ruppersberger. And I know there are programs like 
Buddies, and really, when you have police officers working with 
juveniles in a nonconfrontational way, they learn to have 
respect instead of fear.
    Mr. Clark. I think just one other thing with that. With a 
lot of these programs like PAL, Buddies, etc., it takes a lot 
of money to keep those afloat, and that is really where we 
get----
    Mr. Ruppersberger. And the community has to step up, too; 
not just government. Government can't do all things for all 
people. We need a partnership. Getting back to the whole Dawson 
issue, what have we learned since last fall about what works to 
increase safety in the neighborhoods, like Olive Community, as 
an example? We focus in that area. We have a different program. 
Now, what works so far, and what do we need, and what do you 
need from us--Federal, State, or local--from a resource point 
of view?
    Mr. Clark. I think just illustrated on the board, the three 
target zones, if everything becomes a priority in the area, 
then nothing is a priority. And there has to be a focus, has to 
be honed into exactly where the problem is. It has to be 
attacked in a synchronized way within the Department itself, in 
a partnership with the community organizations that surround 
that area who can provide us with impact letters to judges to 
be our eyes and ears and our greatest intelligence source. The 
Department has to attack it from the patrol level, from the 
task force level, from the narcotics level. What we learned is 
that we have to focus on the low level people who are out there 
in the open-air drug markets who drive the violence as they 
fight over customers and over territory. We have to identify 
are there organized groups within the city that control a 
segment of the drug trade and do we have the freelancers who 
come in at night that are often the ones who are hitting the 
pavement bleeding.
    So other things we learned, it is just that we have to 
communicate better. There has to be a better partnership 
between the police and the people at all levels, and we also 
have to form a partnership with State and other governmental 
agencies. We may have different powers, different ways of 
taking cases. As we mentioned, Mr. Tom DiBiagio, the U.S. 
Attorney, has been highly responsive in the disarm program for 
this city. So I have to be able to go to all type of resources.
    Mr. Ruppersberger. I notice that. I haven't seen that much 
with the mayor and DiBiagio lately in the paper so it looks 
like they are working well together. That is good to say.
    Mr. Clark. And we talk, and I am more than happy to bring 
these guys over to Mr. DiBiagio and put an orange jumpsuit on 
them, because when they go over there, they really know that 
they have a problem.
    Mr. Ruppersberger. There is no question teamwork is so 
important. Crime has no geographical boundaries.
    Mr. Clark. Yes.
    Mr. Ruppersberger. I want to get into a specific. We are 
talking about high level issues, resources, international drug 
rings. One of the most important things is our communities and 
our families. Our families, clearly. And you have many families 
now that probably are living in fear and we don't know about. 
We are focusing in certain areas, especially, with respect to 
the Dawson family. But if we have a family right now that might 
not be in one of these targeted areas that has fear for their 
life, fear for their children, what would you advise them to 
do? Take me through what you would advise them to do. Someone 
comes to you with their fear, they have been threatened, and 
now they don't know where to go and they are concerned about 
their kids going to school, what is going to happen there, but 
whether or not they are going to get a firebomb in their home. 
What would you do at this point? What is your program? Let us 
get to the specifics for the people who live in the community.
    Mr. Clark. If a person approaches us and they feel that 
they are in danger or even some portion of their family is in 
danger, what we do is we immediately go out and we start an 
interview process with them to get at the core of exactly what 
their concerns are. If it does require relocation of those 
individuals, we reach out to City Hall, Mr. Reggie Scriber. He 
is with Housing. Housing will provide a location for them to go 
to. I think this was mentioned earlier. In certain cases, we 
can go to the HIDTA groups and they will adopt the case that we 
currently have. Even if it is a low level case, they will adopt 
it, it will become joint. They can provide funding to have 
someone moved out of an area. The main thing, we just have to 
filter out a lot of what goes on to really get at the need.
    Mr. Ruppersberger. One suggestion. Even though you are 
dealing with specific problems, I think it is important that we 
take the whole neighborhood back. If that fear is there, it is 
important that we organize the community, the families, and 
maybe pull them together, and I am sure you are doing that.
    Mr. Clark. With the new organized crime division, what we 
did, we actually broke the city of Baltimore up into four 
separate zones. Each one has a lieutenant that is involved. The 
districts, the east and southeast have their own narcotics 
units that are turf-based, that stay in their area. The 
northeast, northwest, and northern, they just have the same 
narcotics guys that stay in there. The central, the western 
have their own, and the southwest, and the southern. So we 
broke the city up into four areas. The same narcotics 
detectives stay in the same areas, they attend the community 
meetings. Any call that we have been getting in lately, and 
this is something that is going to take time to develop here, 
there is an immediate response. If you call----
    Mr. Ruppersberger. And I agree with you. I think the focus, 
if we look at our history in the United States of America, it 
is the power of the people and the power of the communities. 
And once we organize, and we have community leaders here today 
that we are going to hear from. That is extremely important.
    Mr. Chairman, I know my time is up. Could I ask one more 
question? I now represent four areas of the Baltimore region, 
Baltimore City, Baltimore County, Anne Arundel, and Harford 
County. How is the cooperation--since I am gone, I guess--but 
how is the cooperation with respect to the drug interdiction 
for the region? Are we working together as a region?
    Mr. Clark. Actually, I have been in contact with 
Superintendent Norris, and the interdiction and with the State 
Police has been excellent. They are hitting 95.
    Mr. Ruppersberger. I am talking the other counties, too, 
Baltimore County, Anne Arundel, Harford, and Howard County.
    Mr. Clark. We are gong to have to improve on that area, 
because like I said, I believe that Baltimore is the key. As I 
keep hitting harder, they are going to go look for other 
markets to work in.
    Mr. Ruppersberger. Well, I don't have enough time for 
questioning, but there was an issue raised, I believe by Carr, 
the issue that you can have a lot of hot spots, and if all you 
are doing is taking your drug dealers and putting them in 
another neighborhood, that is not going to do any good.
    Mr. Clark. No.
    Mr. Ruppersberger. So I would really suggest you focus on 
with your other counterparts in the other counties for a strong 
regional approach to this whole drug situation, knowing that 
the major issues are in the city.
    Mr. Clark. Absolutely.
    Mr. Souder. Thank you. Mr. Czorapinski, State Police, you 
mentioned in your testimony that you are part of the HIDTA 
program and the task forces. Are you in each of the different 
sub-tasks, or are you focused on the mass transportation, or 
what is your relationship with the HIDTA?
    Chief Czorapinski. We participate in several of the HIDTA 
initiatives. We assign troopers to work along with DEA agents 
and local Sheriff's offices down in Charles County, for 
instance, and we work together down there on, I think, about 
five initiatives. One that we were really successful with until 
September 11 was the package interdiction initiative going 
through FedEx, UPS, interdicting packages through the mail. 
After September 11 and the anthrax scare, that sort of dried up 
to a degree because everybody that was shipping through parcel 
deliveries knew that there was going to be a greater scrutiny 
in packages, so the highway interdiction started picking up, 
and that is what we are concentrating now.
    Mr. Souder. I am not sure how you pursue a case. Do you 
have any kind of witness protection issues as you make a bust 
on I-95, and then try to trace that backward?
    Chief Czorapinski. So far, witness protection hasn't been a 
great problem for us. We do try on every arrest, the debriefing 
is crucial that everyone is debriefed when they are arrested to 
get that additional information, to see if they will roll on 
their source, and then take it even further. Usually, when it 
goes further, it is going to be interstate, and we get DEA 
involved in it. And if there is a protection issue, then we 
work it out with DEA.
    Mr. Souder. When you do a bust like the cocaine bust that 
you referred to under 14 pounds, do you roll down as well as 
up? And when you go down to see where they were headed with it, 
do you work with the city police and whatever to try to figure 
out where it is headed and then whether or not there would be 
any questions there of trying to get cooperation? Or do you 
just turn it over?
    Chief Czorapinski. Whatever information we can get, we try 
to--if we can't followup on it because it is going to be out of 
State, then we definitely get a hold of DEA. If it is going 
into the city, we definitely have to get a hold of the city. I 
think cooperation between their drug folks and ours has been 
very good. And depending on how much information we can get and 
start building on that information, if we have information it 
is going to go into the city, we get the city narcotics 
investigators. They may know something more, another piece of 
the puzzle, that will either help them go in another direction 
or take it to a final delivery point where you can try to 
control delivery.
    Mr. Souder. Commissioner Clark, did you have anything to 
add to that?
    Mr. Clark. I believe that just trailing on the back, the 
witness intimidation is probably the underpinning of 
everything. You need money to be able to relocate people, even 
if we have to take them out of the State. If they don't have 
the trust in us that we are being effective on the street, they 
don't have the confidence that if they do step forward and 
testify, that they are going to be protected, the results of 
their testimony are going to bear out, we are going to just be 
going in the same direction. Even if the courts aren't helping 
us, it is the witnesses and the public that is the key to us. 
And as we develop cases, a lot of times most people clam up, 
who are just transporters and mules. But as we get into where 
it is going and other people help us with intelligence, the 
biggest part, we have to be able to protect people. We have to 
be able to remove them from an environment at a moment's notice 
if it happens without going through a lot of other agencies. I 
would like to have that for myself, but it is trust and the 
confidence that we are going to get to the bottom, that we are 
going to protect these people, we are going to get those 
convictions in court, and these people are going to go.
    And we probably need some real strong legislation, 
meaningful legislation, that if somebody attempts to intimidate 
one, particularly, in a drug case or a crime of violence, that 
the penalties would be so swift and severe that it just would 
not be worthwhile for most of these thugs. They go sit in the 
courtroom when people are testifying and look at them on the 
stand. They don't have to say a word, but the message is sent. 
So we need certain--we need to be able to intercede.
    Mr. Souder. I thought that only happened on the Law and 
Order TV show where they try to intimidate the witness.
    Mr. Clark. Go downtown to Baltimore and that is where they 
get their ideas from. And I wish I could get in there and do a 
little something about it, but that is a little out of my area.
    Mr. Souder. Mr. Woods, I wanted to followup. You raised 
some of the difficult challenges we have in the neighborhoods 
in this very question of how to get cooperation, and that 
question of going beyond just the hotlines and the community 
organizations. First, let me ask, do you agree that most of the 
crime occurs between 9 p.m. and, say, 3 a.m., or 8 p.m. and 3 
a.m., and that the most affected people are in those 
neighborhoods, because a lot of the way we tackled this problem 
doesn't seem to grant those two premises.
    Mr. Woods. No, sir, I don't. You may be talking about the 
crime between two people, but the crime goes on every day, 
every single time somebody picks up a needle, tightens up his 
arm, pumps that vein, and sticks that needle in there. That is 
a crime and it is occurring all day, every day. Every time they 
smoke crack, every time a kid lights up a joint, all day, every 
day. That crime may lead to other crimes, to street dealing, to 
turf battles, to the violence that the commissioner was talking 
about, but it happens all day, every day. You may see it a 
little bit more often out at the streets late at night. That is 
a question as to when it becomes visible on the streets. That, 
I would refer to the community leaders here and to the 
commissioner. But no. Is that the limit of it? No way.
    Mr. Souder. No, I didn't say the limit. Are you saying that 
violent crime is not skewed to the night in Baltimore?
    Mr. Woods. Well, excuse me. I didn't understand your----
    Mr. Souder. There were two things there, that in other 
words, obviously, heroin abusers, people who smoke drugs, that 
occurs kind of across the board, may not be necessarily skewed, 
so let me tighten the question. Do you believe violent crime is 
more skewed to the night?
    Mr. Woods. Sir, in the years that I have worked here, I 
have seen it occur during the day. There was a famous shooting 
on East North Avenue 2 years ago, 12 people were shot. I 
believe that occurred in the middle of the afternoon. But I do 
believe that, in general, when the dealers come out at night 
and need to protect their turf, the risk of violence escalates, 
the level of violence escalates. It is not the only time the 
violence occurs, but again, I suspect my colleague next to me 
would be able to answer that better, and the community leaders 
behind us that you are going to hear in the next panel who get 
to watch it every day could be even more accurate than I am.
    Mr. Souder. Well, let me pursue a slightly different angle 
at this, that you raised the importance of the different 
community organizations. And in the Federal Government right 
now, we are spending quite a bit in all these different 
approaches which we are going to hear from in the next panel, 
from the CADCA programs, Community Anti-Drug Coalitions. But 
the Federal Department of Justice and elsewhere has funded 
quite a few programs both directly and indirectly to try to 
promote community organizations and community cooperation. And 
one of my concerns that is not well documented in any way, 
either direction, is that many of these, the dollars are only 
minimum getting into the neighborhoods, and that they are 
mostly people who live outside the neighborhoods coming in to 
``try to help the neighborhoods.'' That even when we go into 
the neighborhoods there is a veneer of leadership that is there 
that may be the established community groups, but I am not sure 
it is actually getting down to the grassroots level and the 
participation in the actual neighborhoods, which then becomes a 
major challenge to us, who are funding these programs, if, in 
fact, people say, well, the government isn't working. We are 
putting all these dollars in.
    The question is, is what we are doing actually providing in 
these different networking groups, providing the protection, or 
would, in fact, some of those dollars, making sure that there 
was a policeman in the immediate neighborhood, a police office 
in the immediate neighborhood, that would back up the citizen 
if they gave--in other words, to some degree, this is an either 
or proposition, and the question is which way do we go. Would 
they feel more secure if they knew they would have a law 
enforcement officer there in 5 minutes than by having a number 
of community meetings about it? Now, if you can have a 
community group that is based and does neighborhood watch, and 
helps provide that protection, has the confidence they can get 
a police officer there in 5 minutes, you are going to do that. 
But this is, to some degree, a zero sum tradeoff, and I am a 
little concerned that we are doing a lot of networking and 
meetings that may not be producing the results. And I would 
like your reaction because that was one of the things you were 
proposing.
    Mr. Woods. Actually, now that I understand your question, 
you are correct. But you are actually beginning, in my opinion, 
to make a difference. Quite frankly, some of the work done 
through faith based organizations has gone, in my observation, 
deeper into the neighborhoods in terms of actively engaging the 
neighborhoods to take steps that I had seen in the past. 
Another way of reaching the neighborhoods is through treatment. 
Immediately after the Dawson hearing, the mayor asked if there 
was anyway the Baltimore Substance Abuse Systems, where I 
worked at that point, could make some treatment slots available 
to the neighborhood. We did some scrambling and came up with 
some treatment slots. And I suppose because of communications, 
those slots were not filled within 2 weeks. So we sent some 
people out into the community to see if we could find out why 
these slots hadn't been filled. Well, it was communications, 
but when we got into the neighborhoods and spoke to some of the 
community leaders, they said, oh, you have places for treatment 
of some of our addicts--and filled the slots, literally. Took 
us around, introduced us to people, an outstanding police 
officer who knew the community leaders and to whom we wrote a 
commendatory letter, which I am sorry I didn't bring with me 
because I cannot recall his name at the moment. Put two of my 
people in the car, drove them around to where the addicts were, 
and we filled twice as many slots as we had in the space of 
about 2 days.
    That step forward, that action step, was followed by 
requests from the East Oliver Community Organization and others 
to see if we could continue to help make treatment available 
for referrals from the neighborhoods so that the nature of 
their problem could be lowered. That example of giving a 
neighborhood an action they can actually take to lower the 
nature of the problem in their neighborhood, to directly attack 
the conditions that lead up to that sort of thing, was 
extremely positive. I hope it strengthened the neighborhood. 
It, certainly, to the extent that we were able to put people in 
treatment and keep them there, made the neighborhood safer and 
was a positive step.
    Yes, I agree with you, the police need to be there. Yes, I 
agree with you that not only the hotline, but the police 
officer on the scene is absolutely irreplaceable. You have to 
have them. No, I don't think that just meetings do the job. But 
do I think that meetings that lead to the community's authority 
to take action on its own behalf is a mandatory step? You heard 
Congressman Ruppersberger for a moment say, yes, there is a 
little bit more to it than moving a witness. You have to take 
back the neighborhood. I 100 percent agree with him. That is 
what we have to do.
    Mr. Souder. One last question that I would like to have Mr. 
Clark comment on if he has any additional comments on these, 
and that is that in the--we heard in the first panel and then 
on this panel, the importance of, basically, getting the 
killers, the dealers, the addicts in different ways off the 
streets, but let us deal with those as opposed to the degree 
you separate the addicts from the others. As we lock a lot of 
these people up and change the attitude, as was alluded to 
earlier by the mayor, the culture that you weren't going to be 
prosecuted, and they are going to be prosecuted. Does the State 
have a strategy at all for trying to deal with the people while 
they are in prison?
    We are looking around the country because where we have had 
the success in crime reduction, the pattern is the same all 
over the country, increased arrests. In effect, we had crime 
reduction because we put the criminals in prison. Now, the 
problem is that once they are in prison, at some point they 
come back out. So in my hometown there is right now a major 
initiative trying to work with the different judges, because 
there is going to be in a city of 200,000, 3,800 people coming 
out in the next couple years, mostly young. They have to go 
back to the neighborhoods where they were taken out of because 
you can't put them in a place where they didn't come from.
    So they go back in that neighborhood. Those neighborhoods 
are now panicked because they are going to have 3,800 criminals 
who have been in prison coming back into their neighborhoods to 
some degree, lesser to some degree, violent criminals, and the 
question is what are we doing in the interim while they are in 
prison? Are we giving them any skills? Do we have a plan for 
housing? Congressman Davis is part of the subcommittee on a 
bill, as well as other members here, on trying to address 
housing questions, because otherwise, they are just going to 
repeat the pattern. They will commit the violence again and be 
right back in, but they have to hurt some more people before 
they do so.
    Mr. Woods. And that, actually, is the keynote. The word 
should be and the goal should be the prevention of future 
victims. Actually, Maryland is trying to do that in several 
ways. Thanks to your Federal RSAT, Residential Substance Abuse 
Treatment programs, we have two sets of fairly good projects in 
the Division of Correction. A new one starting at the Maryland 
Transition Center does something that RSAT funds have not 
historically done. It links the individual inpatient while 
incarcerated with a treatment in the community, a licensed 
treatment facility in a community to which the man already 
belongs at the time he is released. He goes directly from 
prison to his treatment facility. RSAT has historically been 
limited by the percentage of money available for treatment 
outside the walls which provide the linkages for such after 
care. The Maryland experiment at the moment at MTC links two 
forms of money, Federal and State, to see if we can address 
that issue.
    I would point out that is particularly appropriate, because 
on Director Carr's map over there, three areas he has circled 
are 13, 14, and 15. Now, you mentioned 3,800 people coming out 
in the next year. In the next several years in town, 200,000. 
Maryland releases between 4,000 and 8,000 a year. Half or more 
have no treatment. And more than half of them, two-thirds of 
them, go into zones 13, 14, and 15, right where those maps show 
it to be. If you look at the crime maps that I am quite sure 
that Commissioner Clark could show you, you would find that his 
highest crime areas are--excuse me--13, 14, and 15. If you look 
at the DSC maps of where individuals are relocated and released 
to--13, 14, and 15 every single time. We have overlapping 
circles.
    That is what we are working on, but we can't just work on 
it on inside the walls treatment. It has to continue. If they 
come out without support, if they come out--now, I am not 
talking about the violent ones. They should stay in as long as 
they freaking can--excuse my language. I beg your pardon. But I 
happen to agree with the commissioner on that. But when they 
come out without any support, without any access to subsequent 
facilities, without even a referral, a linkage to treatment, 
then what you have done is you have created a future victim 
because the man has no defenses against the dealer that is 
going to try to addict him, and the dealer is going to try to 
addict him because he needs to increase his customer base, and 
then what is going to happen is he has to go out and hit 
somebody else over the head to get the money to feed his habit.
    We can't keep doing them over and over again. We all need 
to work together, the city level and State level, to address 
that problem. And I thank you all very much for the RSAT funds. 
They are invaluable in that fight. Could you please give us 
some more?
    Mr. Souder. Mr. Clark, do you have any additional comments 
to that?
    Mr. Clark. I just think they hit it right on the head. The 
environment for rehabilitation work, the environment that they 
come back into has to be cleaned up. I mean, I don't see how a 
person can make it, you know, with the level of open-air drug 
markets and schools. I think we have to get in these schools 
early and be willing to educate kids about drugs, because if 
they get the education from other people, and they are in 
situations sometimes where they just--peer pressure--they have 
to get involved. So I think it should be a very open approach, 
a very realistic approach from a very early age throughout the 
time they graduate to make them aware of exactly what can 
happen. I mean, even on the legal end. You can't vote if this 
happens, etc., the violence, the health conditions, etc., that 
exist. So you know, just a whole big approach to the whole 
thing, the environment and education.
    Mr. Souder. Well, thank you very much. I appreciate your 
participating in the hearing. If the third panel could come 
forward, and we will take a very brief break.
    [Recess].
    Mr. Souder. We will go ahead and get started with the third 
panel. If you will each raise your right hands? Dr. Burley 
already did it; he doesn't need to do it.
    [Witnesses sworn].
    Mr. Souder. Let the record show that all the witnesses 
responded in the affirmative. We appreciate each of you being 
here. I should have read the backgrounds as I was calling you 
up, and rather than doing it individually, let me do it as a 
group. General Arthur Dean is retired, he is chairman and CEO 
of the Community Anti-Drug Coalitions of America, the largest 
organization, and coordinates many of those. We have worked 
together with many hearings in Washington. The Reverend Dr. 
Robert Burley, president, Oliver Community Association and 
pastor of the New Life Ministry Baptist Church.
    Mr. Burley. Missionary.
    Mr. Souder. Missionary. I said Ministry--it should be 
Missionary Baptist Church. Dr. Linda Thompson, coordinator, 
Baltimore Community Anti-Drug Coalition, and acting chair and 
associate dean, University of Maryland School of Nursing. And 
the Reverend Iris Tucker, who is pastor of the Knox 
Presbyterian Church. I don't want to mess with the Missionary 
Baptist Church. They are a pretty large denomination. I thank 
you all for being with us, and we will start with General Dean.

STATEMENTS OF ARTHUR T. DEAN, CHAIRMAN AND CEO, COMMUNITY ANTI-
   DRUG COALITIONS OF AMERICA; ROBERT BURLEY, SR., PRESIDENT 
 OLIVER COMMUNITY ASSOCIATION AND PASTOR, NEW LIFE MISSIONARY 
   BAPTIST CHURCH; LINDA S. THOMPSON, COORDINATOR, BALTIMORE 
 COMMUNITY ANTI-DRUG COALITION, AND ACTING CHAIR AND ASSOCIATE 
 DEAN, UNIVERSITY OF MARYLAND SCHOOL OF NURSING; IRIS TUCKER, 
                PASTOR, KNOX PRESBYTERIAN CHURCH

    General Dean. Chairman Souder, Ranking Member Cummings, 
Representative Ruppersberger, thank you for the opportunity to 
speak to you regarding this most important issue. We applaud 
your commitment to expanding Federal support for community 
activities and commend you for the Dawson Family Community 
Protection Act.
    Community Anti-Drug Coalitions of America knows that drugs 
and crime, particularly, violent crime, are intimately 
connected. The Drug-Free Communities Support Program and the 
Weed and Seed Program both enable many of our community 
coalition members to continue their work. And we thank the 
committee for your support on the Drug Free Communities Act 
Reauthorization and your commitment to community coalitions. We 
embrace the comprehensive effort those programs promote because 
they combine supply and demand reduction programs and we know 
they work.
    Drugs have a tremendous impact on our society. In 2000 
alone, there were more than 13,000 drug-related homicides. In 
1999, research tells us that 13 percent of jail inmates 
admitted committing an offense to get money for drugs. It is 
our experience that when citizens from all sectors of a 
community come together to address drugs and related problems, 
people feel empowered, and not only believe that they can 
impact the drug problem; they, in fact, do. Taking a holistic 
approach, community coalitions can mobilize the entire 
community. They know it isn't enough to simply take the drug 
dealers off the streets and to arrest violent crime offenders. 
They know that to solve the problem, they must reduce the 
demand as well as the supply, and they work to change the 
behaviors, norms, and the environment in the community.
    As a neutral convener, community coalitions help to connect 
the various parts of the community by bringing together its 
leaders and developing multiple strategies across multiple 
sectors. Coalitions bridge the gap, bridge the communications 
gap, by coordinating the flow of information and activities 
between groups. Law enforcement agencies are vital partners in 
the community coalition's work.
    Let me give you some examples. You can find more in-depth 
details in my written statement. Here I will provide a brief 
synopsis of coalition efforts and suggestions for Federal 
policy. In Tacoma, WA, the Safe Streets campaign coalition 
worked with law enforcement officials to reduce the number of 
local gang members from 2,500 to just 500. They also reduced 
the number of drive-by shootings annually from 300 to 1 or 2. 
In short, they took back their streets through a sustained 
community-wide comprehensive efforts.
    Another quick example in San Antonio Fighting Back. A Drug-
Free Communities grantee and a Weed and Seed site coordinator. 
Through coalition cooperative efforts, they developed a hotline 
and they properly trained and enabled citizens to become eyes 
and ears of the police department. The citizens became 
empowered and the police got the help they needed to better 
target their efforts.
    Another example in Troy, MI. When the police noted kids who 
had nothing to do over the summer, were loitering and causing 
trouble, the coalition obtained the Federal, local, and private 
resources necessary to develop an anti-drug prevention program. 
Their coalition communication channels also made police aware 
of a planned warehouse party where drugs were likely to be used 
and they thwarted it.
    The coalition believes the Federal Government can really 
help communities by placing continued emphasis on youth 
programs for all children, not just those in high risk areas. 
Continued funding for multi-jurisdictional task forced that 
address overarching problems and funding for comprehensive 
programs that include prevention, intervention, and treatment.
    CADCA supports the Federal Government emphasizing 
collaboration between prevention and interdiction activities. 
In Huntsville, AL, Chief Owens believes law enforcement should 
be a part of the community instead apart from the community. 
His department is aggressively involved with community 
education, even allowing the community watch group to have an 
office in his precinct. He strongly believes in Federal 
assistance to increase collaboration between communities and 
law enforcement, more money and emphasis on prevention, 
intervention, especially, early intervention, model policies to 
provide guidance, and an organization that provides housing and 
employment assistance to victims.
    In summary, when all sectors of a community come together, 
they can have a tremendous impact. The partnership empowers 
citizens and facilitates law enforcement work. Working in a 
collaborative partnership, the community can find and address 
the root causes of problems and can take the preventive steps 
necessary to stop them from destroying neighborhoods and lives. 
CADCA fully supports all efforts to reinforce comprehensive, 
community-wide efforts to stop the spread of illegal drugs and 
violent crime. The unifying factor in all the communities I 
have spoken about today is the presence of a community 
coalition and its collaboration with local law enforcement. 
Thank you again for holding this hearing and for giving me the 
opportunity to testify at this time. I would be happy to answer 
any questions you might have. Thank you.
    [The prepared statement of General Dean follows:]

    [GRAPHIC] [TIFF OMITTED] T1837.028
    
    [GRAPHIC] [TIFF OMITTED] T1837.029
    
    [GRAPHIC] [TIFF OMITTED] T1837.030
    
    Mr. Souder. Thank you very much. Reverend Dr. Burley.
    Rev. Burley. Good morning to Honorable Congressman Souder, 
Congressman Cummings, and Congressman Ruppersberger. I am here 
this morning--this afternoon now--representing a number of 
agencies in Baltimore. I represent the Oliver Community 
Association, the Oliver Economic Development Corp., New Life 
Missionary Baptist Church, and BULD, Baltimore United and 
Leadership Development. BULD is a congregational based 
organization with over 40 churches, 8 schools, and a low wage 
worker's association. BULD has a 26-year track record of 
improving the city. We are the largest developer of affordable 
houses in the city. We won the first living wage campaign in 
the country and we created the first after school authority, 
Child First. We have a deep root and are deeply rooted in the 
Oliver community. My church, along with seven other, are 
located in the Oliver, and as well as our after school program 
and Dr. Bernard Harris.
    We turn out at any given time over 500 residents in 
different actions, and I am going to pause right there and 
interject that not only with BULD and my church, with the other 
churches in Oliver, we have at any given time, and even at the 
time of the Dawson incident, turned out people in the community 
who care but who are afraid. They are still afraid of what is 
going on in the city, dealing with terrorism in the city. There 
is nothing that compares with the horror of the Dawson family 
firebombing. The Dawson children attended the after school 
program at Bernard Harris and also attended one of our church 
Sunday schools.
    Immediately after the bombing, the BULD called on Mayor 
O'Malley to work with us to make our neighborhood safe. Our 
members were still being threatened by drug dealers. Many of 
them were afraid to--and are still afraid--to come outdoors. We 
told them at that time, and even some at this time, not to call 
911 or 311 because in calling these numbers they were targeted. 
Mayor O'Malley responded. We asked for meetings with the police 
commissioner. We met. We developed a way for the residents to 
give information to the police without calling them. As we 
began and developed a strong relationship with the police 
department, with the Eastern District, with the police 
commissioner, residents began to see a level of policing that 
they had never seen before, a policing that is intense and 
targeted. Over 40 drug locations have been targeted. Just last 
month, 15 arrests were made in 20 days in one area.
    I believe people are beginning to see a shift, beginning to 
feel safer, not on every corner, but we are getting there. 
There is no formula for the work we are doing. It is intended 
to process and build relationships with people who have a deep 
root in the community. It is a relationship based on trust, a 
relationship where the police do their job, and we hold each 
other accountable. This is our brand of community policing and 
it works. Just an idea that it works at one given incident, 
there was information given to the police that yielded three 
arrests, one sawed off shotgun removed from the streets, 280 
vials of crack cocaine was removed from the streets.
    With all the work we have done, Mayor O'Malley, the police 
commissioner, the mayors of the districts, and others, there 
are still four major violent drug areas in the Oliver 
community. Bethel Street, where my church is, the intersection 
of Preston and Caroline, and Bond Street, Spring Street, and 
with all the police activity in the area where we are, in the 
inner Oliver area, a lot of the drug activity is pushed out to 
the outer areas like Holbrook Street. There are areas that have 
a high rate of abandonment. The one thing that we found that is 
related closely to the drugs and the crime in the city is the--
and we quoted this term ourselves. We call them 
``abandominiums.'' They are abandoned homes where we boarded 
them up and forgot them, but the drug dealers use them just 
like they are regular condominiums. And we need to do something 
about the abandominiums that we have in the city.
    And when we see that when we do something about these 
things, we will find that crime will move not only out of that 
area, we can get it to move out of any area where blight is 
heavy. And we will never be able to police, as conventional 
policing, our way out of this virus. We did not get here 
overnight. It is the result of 35 years of disinvestments in 
our neighborhoods, systematic neglect. We have in Oliver over 
900 vacant homes, each one of them is another staggering ground 
or a playground for the drug terrorists. We need to get rid of 
the vacant homes, the blight that is in Baltimore.
    And mainly in Oliver, we have a problem where--and I am 
going to interject this at this time. If your Chevrolet breaks 
down, you don't take it to a Ford dealer. So if you want to 
know where the rats are in a neighborhood, you have to go to 
the people who live in the neighborhood, and that is dealing 
with either the four-legged rats or the two-legged rats. And 
most of our people know where the two-legged rats are as well 
as the four-legged rats, but they are afraid to share any of 
that information because of retaliation. But the way that we do 
it in Oliver, there is a mechanism in place, brought in place 
by the BULD organization, that allows our people to get 
information to the police department and it is done in a way 
where no citizen is really actually involved, and they are able 
to do great work from the information they get from the 
community.
    It is nice to know that police are there, but the 
relationship between the community and the police has not 
always been what it has needed to be, and without the help from 
the community, police work is at a standstill. So we need to 
understand that BULD is working in the community. They have a 
mechanism in place that does work. BULD has already done and it 
is in partnership with Enterprise in building homes. We have 
built over 500 Near My Homes; nearly 300 of them in the same 
town, Winchester area. Two years ago, we rebuilt the 1200 block 
of Calhoun Street in Sandtown. Last year, three drug-related 
calls were from that block. But if you move a few blocks down 
in the blighted area, the 900 block of Calhoun Street, you have 
drug calls that number 254. So it is obvious that if we can do 
something to rebuild our city, we can also do something to take 
away the threat of the drug terrorism. People can once again be 
safe.
    We don't need more pilot programs. We need a marshal 
program to rebuild our inner city neighborhoods. I don't mean 
throwing money at the problem. I mean, aiming systematic 
investments to tear down vacant homes, clean land, rebuild. Our 
sister organization in Philadelphia, PIA, is beginning to do 
this by winning a $295 million bond build. Our sister 
organization in New York, they are going on and have done a lot 
of the same. They have built over 3,000 Near My Homes in an 
area that 10 years ago looked like Oliver. If the Federal 
Government does not systematically invest in our neighborhoods 
like Oliver, particularly, in the rest of our cities, another 
tragedy like the Dawsons will occur. Maybe not next year, but 
the year after. It is blight that fuels the drug traffic in our 
cities, and in order to do anything about the drug trafficking, 
we have to do something about tearing down abandominiums so 
that our people can feel safe.
    And with the relationships that we build with the police 
department, with the mayor's office, we are able to do a brand 
or a style of policing that is different, is new, but it works. 
And our people are out of danger. We are taking our citizens 
out of the danger of policing, and that is something that was 
not with the Dawsons. The Dawsons, they wanted to be good 
citizens, they wanted to be good neighbors, but in turn, they 
were not able to maintain their own safety and the police were 
not able to protect them either. But next door to the Dawsons 
on either side, we have abandoned homes. And with the abandoned 
homes, you have places where drug dealers can meet and do 
whatever they need to do.
    There is a lot of testimony about our children. In order to 
get our children out of harm's way, we need to find something 
for our children to do. If we don't find something for them to 
do, the drug dealers have already found something for them to 
do. Just last week, a 14-year old boy was shot down on the 
street, in the playground. And the thing of it is with that, I 
have heard people talk in the community meetings. One said he 
was bad, one said he was good, but the bottom line is, the 
knowledge was there that there was a contract on this child 
before this child was killed and nobody could save the 14-year 
old. We talked about--there is another Dawson tragedy. Every 
time a 14-year old is shot down in the street, that is another 
Dawson tragedy.
    In east Baltimore alone, for the month of June, there was 
928 youth arrested for crimes. In the city of Baltimore, you 
have nine police precincts. We are in the Eastern District. Out 
of the 928 children, from the age of 7 to 17 that was arrested, 
109 of those came out of the Eastern District. That is our 
district. We have to find--along with ridding our city of 
abandoned homes, we have to have programs for our children to 
get them off of the street. Thank you for this opportunity to 
testify. Thank you for coming and having this hearing. It was 
much needed at this time.
    Mr. Souder. Thank you very much. Dr. Thompson.
    Ms. Thompson. Good afternoon, Chairman Souder, Congressman 
Cummings, and Congressman Ruppersberger. Thank you for this 
opportunity to share some thoughts on the critical need to 
protect children and families from drug-related intimidation 
and violence. Like everyone else in Baltimore and across 
America, I was shocked to learn that the Dawson family had been 
killed by an appalling act of drug violence in October of last 
year.
    I commend you, Congressman Cummings, and you, Chairman 
Souder, for your efforts to enact the Dawson Family Community 
Protection Act, expanding Federal support for protective 
measures like anonymous anti-drug hotlines. This legislation 
and funding are very much needed, both here in Baltimore and in 
communities like the one you represent in Indiana, Chairman 
Souder. The legislation is important to improve the lives of 
law-abiding citizens who are increasingly dominated by fear and 
intimidation that are inevitable from drugs and violence.
    I can confirm this harsh reality both as a public health 
professional and from my past experience as Maryland's 
Secretary for Children, Youth and Families. Last year, the 
Baltimore City Council determined that there are an estimated 
59,000 illicit substance abusers in the city of Baltimore, of 
whom only 10 percent are receiving treatment. A seldom-
mentioned corollary of that fact is that nearly 600,000 
Baltimoreans are not using illicit drugs. Yet, we are living in 
fear of drug-related violence every night and day, the very 
realistic fear that any of us could suffer the same violence 
that took the lives of Mr. and Mrs. Dawson and five of their 
children last year.
    That is why I am here today to commend the work of this 
subcommittee. Your work offers us hope that, with hard work, we 
can be released from the constant state of fear. I, especially, 
applaud your vision and wisdom in supporting practical, 
commonsense measures that encourage the mobilization of 
families and communities in self-defense against the drug 
plague.
    As the coordinator of the Baltimore City Anti-Drug 
Coalition, I have been working with Dr. Keith Plowden, Mr. 
Terrell Ringer, the Empower Baltimore Management Corp., and 
Congressman Cummings' office to assist community leaders 
throughout Baltimore to take action to better protect their 
families and neighborhoods against the drug plague. People in 
Baltimore are determined to fight illegal drugs in their 
neighborhoods through the formation and expansion of community 
anti-drug coalitions modeled on strategies found to be 
effective by the President's Office of Drug Control Policy.
    I have appended a copy of our most recent report and 
recommendations with respect to this effort to my written 
testimony, and with your permission, I ask that our Blue Print 
for Livable Communities through Collaborative Partnerships: A 
Case Study of Baltimore City's Drug Control Initiative be made 
part of the record. Because of our focus and time limitations, 
I will only talk about a few of the findings that we have.
    First, our greatest--our community members felt that our 
greatest strength in the struggle against drugs and drug-
related violence is the ability of communities to form drug-
free coalitions. And in that, they wanted to be able to 
establish diverse types of programs, especially, recovery 
houses for individuals who are substance abusers, youth 
programs, working more closely with developing police athletic 
leagues, funding programs with churches and faith based 
organizations, expanding neighborhood watches. But the most 
important thing that parents talked about was looking at ways 
that they could learn to parent more effectively in drug-
infested neighborhoods.
    Second, success in drug prevention, as well as in policing, 
will depend on our developing better lines of communication 
between citizen activists and government. To state it more 
plainly, people in neighborhoods want to cooperate with 
government in ridding the communities of drugs and drug-related 
violence, however, the lesson that we learned from the Dawson 
family says that reasonable citizens will only cooperate if 
they feel safe, and if they can feel safe in their communities. 
As I mentioned to you earlier, that is why I am supporting the 
Dawson Family Community Protection Act, and I think this is 
very, very important for our communities, and I would be 
pleased to answer any of your questions.
    [The prepared statement of Ms. Thompson follows:]

    [GRAPHIC] [TIFF OMITTED] T1837.031
    
    [GRAPHIC] [TIFF OMITTED] T1837.032
    
    Mr. Souder. Thank you very much. Reverend Tucker.
    Rev. Tucker. Hopefully, I can talk loud enough. I thank 
you. To the Chair, to the Congressmen, I thank you for having 
me here this afternoon to share my testimony. As a new pastor 
in the Oliver community, I met with residents on Eden Street at 
a house meeting held at the church. Residents complained that 
drugs were being sold openly and boldly in the schoolyard, on 
street corners, both at Hoffman and Preston, and that strangers 
rode up in cars to a bench on Eden at the open space at the 
entrance of the basketball court and the tennis courts. When I 
suggested that we address the issue outright, I was met with 
much resistance and fear. I was told that I did not live in 
that neighborhood 24/7, and that I would not have to suffer the 
retaliation of drug dealers.
    Individually, I tried to talk about ways to address the 
problem without anyone knowing who gave the information, but 
still, there was a great deal of mistrust and fear expressed 
with no one willing to risk their neck for a problem that 
appeared entrenched in their community. It was not until the 
morning of October 16th, when the unfortunate and horrendous 
tragedy of the Dawson family deaths that I fully realized and 
felt the extent of the real and present danger in the lives of 
the people who lived in the community, and experienced the 
stifling effects of living day-to-day with the pestilence in 
their midst that they could not confront for a fear and danger 
of life and limb.
    This was not something that affected a few, but the entire 
community, children who walk to and from school, passing these 
transactions daily. Young, old, and everyone in between were 
directly affected by this plague. I do not feel that the 
community feels any safer today with calling in to a hotline 
than they did when this terrible tragedy happened in October. 
From my own experience and that of residents who now call 311 
or 911 numbers with much difficulty. The issue of trust is 
still a very real problem. I believe that the need of families, 
such as employment, or underemployment, housing, and most of 
all, activities for youth, and the issues that force families 
into looking the other way when family members are involved in 
these illegal and violent activities is a grave problem that 
must be addressed immediately.
    We, the church, local, State, and Federal authorities must 
take a holistic look at the problem and work together to solve 
these issues of family and community. If we do not do this, we 
will continue to experience the ebb and flow of problems with 
illegal and violent activities that plague our community. The 
citizens across the city of Baltimore and the Nation are in 
need of our help to keep them safe, but we cannot keep people 
safe when they do not believe or trust that we can effect 
change with city officials, State officials, the Federal 
Government, and elected officials who appear too far from the 
problem to address the issue.
    If there is no relationship between the citizens in our 
communities and the local, State, and Federal agencies of help, 
we will not be able to change the climate from fear to 
strength, from rubble to revived, and from victims of violence 
to victory and vibrant health. We cannot remain after the fact 
people. We must be and remain proactive in the fight to keep 
our citizenry safe and our communities places of pride. That is 
my testimony.
    Mr. Souder. Thank you. Let me step back a second. I want to 
thank you, also, for the passion in the testimony. One of the 
advantages of a field hearing is that you actually get out to 
some degree in the field. When people come to Washington, 
probably even here, as opposed to in your home neighborhood, 
there is a tendency to kind of compromise, or water down a 
little bit, or get to Washington and it is the next step. But I 
am trying to get out, also. We are being buzzed, and running 
around, and here we kind of get it all at one time and 
together, and I appreciate that.
    Let me give you, first, a little bit of an insight into 
some of the struggles that we face. We heard earlier today that 
most of the heroin and the cocaine that comes into Baltimore is 
coming from Columbia. As chairman of this committee, I have 
been down there a lot trying to deal with the questions. Their 
problems aren't substantially different than here in the sense 
of as we try to tell them not to produce cocaine and heroin, 
they say, well, we can make X amount of money if we go out in 
the jungle, we plant this stuff. They will bring a plane 
directly to us. If we plant palm heart or if we do other 
things, we can't make the same amount of money. By the way, we 
don't have a road out to our town, we don't have the processing 
facility, not dissimilar to a kid on the street corner saying I 
can only make $5 at McDonalds, if you can get a job at 
McDonalds. But let us say you could get a job at McDonalds--$5 
at McDonalds as opposed to $400 for being a lookout.
    What we found in Colombia is that we can't have our 
alternative development programs work. We can't have--in most 
of the cities in Colombia, no one will even run for mayor. They 
all get killed by one side or the other. That unless you have 
basic order, unless you feel that you can be safe on the 
street, you can't begin to tackle--nobody wants to put in a 
grocery store if they are going to get mugged all the time 
going to it, or robbed at the grocery store. Nobody wants to 
put in a new housing development and pay a lot of money for a 
house in these abandoned places if they don't feel that they 
are safe. That parents are anxious to get out of schools in the 
neighborhoods where they think their kids may be assaulted at 
the school. Or you see, as I have gone around the country, one 
of the big problems we have is mobility. The second somebody 
figures out that they can get a better job, or finish their 
degree, often, they want to escape the neighborhood because of 
either the schools or the crime, which are very closely 
related.
    So first and foremost, we have to have order. We have to 
have order in Colombia and elsewhere, but just order won't do 
it. And that is what you all are saying, is that you get order 
established, which isn't saying that isn't first and primary, 
but then what are we going to do to maintain order as we get 
another group of people coming up with that. Now, in looking at 
that challenge, one other thing I wanted to mention, in 
particular, Reverend Dr. Burley, is that--I had a birthday on 
Friday, and now I feel really old. I am 53, and you know, at 28 
you start going downhill, I guess, in your memory retention and 
everything else. But I was with the Children Family Committee 
as a Republican staff director, as a staffer, and then in the 
Senate, staff did a lot of these kinds of things, and I was a 
member. And it is interesting, because we go through these 
cycles, and I see the cycles.
    In my hometown of Fort Wayne, at one point in the 1980's, 
it was the third highest crack hit city in the United States. 
It was just everywhere, and especially, in these abandoned 
homes. And working--this is going to seem like an odd 
statement. Working with a friend of mine who was mayor who 
later ran against me in a primary, but we were friends before 
and we are friends now, but we weren't as friendly during the 
primary. But we agreed and we worked toward tearing those homes 
down, but there wasn't an immediate plan of what to do when the 
homes were torn down. So now we have sections of this low 
income neighborhood that have the homes gone and there is less 
crack there, but now there is not enough homes to get a grocery 
store in or the other facilities. And pretty soon, you have 
some government agencies move in, and it is nice to have 
government agencies move in or the schools expand, but there 
aren't any people there.
    So as you move out, as those government agencies or social 
service organizations move in, but at 5 or 8, they are empty. 
And then pretty soon, the people who live in those 
neighborhoods have to go farther and farther, fewer and fewer 
immediate jobs, and trying to figure out how--which I know you 
mentioned a couple of your organizations. There needs to be 
what we have seen around the country, because urban renewal 
went through in the 1960's. And if we just tear everything down 
without a plan of what we are going to do with it, yes, that 
gets rid of the immediate problem. But I know you in Baltimore, 
and the State of Maryland, and around the country have to 
figure out the second step. Because it is so frustrating 
because, absolutely--in fact, I was on the Census Committee. 
One of the most difficult things in counting in the census was 
how do you count how many people are in these abandoned homes 
because they move from house to house. And so if one night 
there is 20 of them there, and the next night they are over in 
another block, how do you even count?
    But I wanted to encourage you in that, that yes, you need 
to get the houses down, but then don't--make sure that the city 
has a plan of what to address afterwards or you wind up with 
your neighborhood shot because they wind up tearing down the 
houses so fast, destroying historic structures of the 
neighborhood, the pattern, in addition. You both, Reverends, 
set up something that I would like you to comment on because 
this has been a frustration of mine for a long time. Now, Bob 
Woodson raised this to me, and I have been trying to figure out 
how to do it legislatively, and there are lots of roadblocks 
with doing it. But I believe that at least a certain percentage 
of government grants targeted for high risk areas ought to go--
have the ZIP code test, that a certain percentage ought to go 
to the people who live in that ZIP code.
    And my earlier questions in trying--I was trying to lead 
into when are the problems occurring? Are your problems 
occurring often at night? I have been in so many neighborhoods, 
they can say, yeah, we can see the government guy going in 
because he will come in, live out in the suburbs. He will come 
into our neighborhood, be here during the day, but not be here 
and leave us with the problems in the neighborhood. That is one 
thing I hear.
    A second thing is that it always seems like the bad guys 
can identify the undercover people but the good guys can't 
figure out the undercover people. Because they are predictable, 
because they aren't necessarily from the neighborhood. I was 
very disturbed and would like you to further comment on this, 
that I think Reverend Dr. Burley said that the 911 and the 311 
weren't working because people were targeted off of that. Does 
that mean when they come out as a followup, they know they have 
called in, or does it mean they have scanners and they are 
picking up the call in the beginning? Reverend Tucker alluded 
to the same concern, that the hotlines were actually not 
working. I wasn't sure whether you felt they weren't being 
followed up or that they were actually being targeted because 
of reported--but I would like that specifically addressed, and 
then broader than that, how you think as a government, we could 
do a better job of getting the dollars into the actual 
neighborhoods where the people lived in the neighborhoods and 
what you think the benefit of that would be.
    Rev. Burley. First of all, to deal with the tearing down 
homes and no one be there--we have people who want to live in 
Oliver. With the biotech coming in the lower part of Oliver, 
they are relocating folks, and that relocation means that 
people want to live in Oliver. So what they are doing is the 
relocation moves people from the lower part of Oliver to the 
upper part of Oliver. OK. In the upper part of Oliver is where 
you have a lot--well, you have it in the lower part, too, but 
you have a lot of homes that can be refurbished, and also, you 
have areas of homes where you have a large number of 
abandominiums that can be totally wiped out and start from 
scratch to do new construction. Because as we know, it takes 
more money to rehab than it does to start from the ground. So 
we have people who want to live in Oliver, so that would not be 
a problem where you would have vacant spaces and no one to live 
there. We have people who want to live there.
    And even with the partnership that BULD has built with 
Enterprise, we are able to put together Near My Homes where 
people will move back in the area when they have affordable 
housing. And with people moving back in the area with 
affordable housing, then you have the mass number of people 
where you can have a grocery store. You can have a barbershop 
with a shoe service. You can have these things because the 
market is there. We just cut the ribbon on 66 Near My Homes in 
Sandtown-Winchester, where people are moving back in the area, 
who some were not even city residents, who are moving back in 
the area, who are commuting as far away as D.C. to work. So we 
have affordable housing, we have partnerships with agencies and 
companies who can put this together so that it will work.
    And to get to your other question of when is the time? All 
of the time is drug dealing time. Now, 24/7 is drug dealing 
time. The thing that is more focused on the time is to when do 
they attract new customers. They attract new customers between 
the hours of 8:30 and 10 a.m., between 11:30 and 1:30 p.m., 
between 4:30 and 6:30 p.m. That is when you will see mass 
migration because they have testers--I want you to test my 
product. It is open-air markets. And you come test my product. 
You do it--and there is hours set up for this to be done. But 
during the course of the day, drug dealing is going on all day 
long.
    To give you an example of this, on the street where my 
church is, which is on the corner of Bond and Lafayette, 
Lafayette Avenue, from Bond Street to Broadway, straight shot. 
They walk that street all day long, selling drugs. One Saturday 
morning, I was out there at 9 a.m. I set up a camera on a 
tripod, and for the whole day that camera was on the tripod, 
there was no drug activity on my street. But the thing with 
that was the camera was broke. But who knew that other than me? 
OK. But I cleared a whole street a whole day with a broken 
camera. So the activity goes on all day every day. You might 
get a break early Sunday afternoon, but that is the only day 
that you would get a break like that.
    It is 24/7 and they have hours where you can sample the 
product before you buy. And when those hours are, you see mass 
migration to wherever the testers are being given out. And that 
is not every other week or every other day. This is every day 
you can get testers, every day. And when you have tested it in 
the morning, you can buy it until the testing time comes again. 
And then more people will come because of word of mouth for the 
noon testing, and more people will come. And then all 
afternoon, you are selling, until the evening testing, because 
the noon testing brings more because word of mouth has spread 
even that much further. So you have more coming in the evening 
migration. It is like animals when it is eating time. They all 
know. If they don't know anything else, they know when it is 
eating time. And they all migrate to the barn at eating time. 
This is the way this is on a regular basis. And it is not going 
on in my area now because there is more police visibility now. 
It will move to Pastor Tucker's area or it will move to another 
pastor's area, because we have nine churches in Oliver, and it 
will move around the area.
    The thing that is going on now, it is moving outside of the 
middle of Oliver to the outskirts, Holbrook Street. And all of 
that area is heavy because the people live daily, hourly, 
minutely, in fear that if I say anything, I am going to be just 
like the Dawsons. And that is the way--and this is--you are 
looking for a time? Just say all day and all night. It is going 
on all the time.
    Mr. Souder. Would you comment on the 911/311, too?
    Rev. Tucker. On the 911/311, I called and I was transferred 
several times to several people. And then in frustration, I 
just hung up. Now, this was--today, I told one of the neighbors 
that I was coming here and what it was about, and she relayed 
to me that her husband had tried to call these two numbers and 
got the same response that I did, was full of frustration, 
slammed the phone down, and just said nobody cares.
    Now, I have to believe that I live in a community or I work 
in a community, the church is in a community that cares. I have 
to believe that this act is going to do what it says it is 
going to do. It brings hope to me. But also, I have to say that 
unless there is a relationship between the community and people 
who are trying to help the community, it is not going to do any 
good, because nobody can come to my house and tell me how to 
arrange my furniture, but they can come to my house and make 
suggestions to me as to how it would be aesthetically better if 
I arranged my furniture in a certain manner, and this is all 
that I am saying, is that it has to be a meeting of the minds. 
It cannot be them versus us or we have all the answers. It has 
to be a working together.
    The other thing is that I would like to relay a story. When 
I absolutely first came to Baltimore 2\1/2\ years ago, there 
were young men out on the corner. They came and sat on the 
church steps. Now, my church sits directly across the street 
from the Dawson--which was the Dawson home. And I came out and 
they began to tell me about raps that they were doing. And so I 
asked them, do you call women certain names in these raps, and 
so they said yes. And I asked them why? And so they told me 
that is what they were. So then I began to teach about who they 
were as a people and where they came from. And the more I tried 
to go back into the church, the more questions they had for me.
    Now, that told me that there was something within these 
young men that was hungering to know who they were as a people. 
We do not address those issues at all. We simply address the 
issue, the outer, the symptoms, of what is underneath. And what 
is underneath is not a knowledge of who they are as a people. 
We just saw an exodus of the I Can't-We Can Community. Now, 
that community and the Knox Presbyterian Church joined forces 
and did the Maafa, and Maafa is a key Swahili word which means 
great suffering. And we did a Maafa experience where some 1,200 
people came through Knox Presbyterian Church, which is a small 
church, in a 5-day period to learn who they were as a people. 
On Saturday, when we were going to the sendoff, we still had 
people calling the church, asking if they could experience it. 
And I said, but you have to wait until next year.
    Now, I caught the devil trying to get the funding for this. 
And all I am saying is that we need to have programs that 
identify with who people are and what their needs are in order 
to have a real relationship. And it cannot be me telling them 
what they need. It must be them telling me, and you, and anyone 
else. I hope that addresses your----
    Rev. Burley. Could we address that 911 a little bit more, 
because I have some more information on that. The one reason 
why 911 and 311 for the longest time targeted people is because 
when the police would come out to investigate the report, they 
would come to the person who called the number first. They 
would come right to the people who called first, then they 
would go to the people who the report was on, which told the 
people who were doing the violence or the crime just who told 
them what was going on. That was one of the reasons why those 
two numbers would target people. And the thing of it is, I am 
not sharing this with you because I heard it. I am sharing this 
with you because it happened to me more than once. I would call 
about activities, and the police car would come to the church 
first before they would go to the area where the crime was. So 
this is another reason why people were targeted.
    And then 311, which is supposed to be non-emergency type, 
if you get through, when you get through, and when they 
respond, everything that could go on probably has already gone 
on before anybody comes to investigate.
    Mr. Cummings. Let me say this. I am going to be very brief 
with my questions, only because we are running far over. We 
were supposed to be finished almost an hour-and-a-half ago, I 
guess. And we have to be in Washington for voting not too long 
from now. But let me just ask a few questions.
    But first of all, Mr. Chairman, I want you to understand 
what Dr. Burley is talking about. I live in what I call a mixed 
neighborhood, and that is mixed income. And I have seen that 
many times. And I was trying to arrange--I wish I could show it 
to you because you won't believe it when you see it. You are 
absolutely right, Dr. Burley. I have seen where at a certain 
time of day--as a matter of fact, 1 day, we were--Norris Davis 
and I, on my staff, we were riding down Park Heights, which is 
a main thoroughfare--was it Reisterstown or Park Heights? Park 
Heights, main thoroughfare, and people were literally, they 
were lined up as straight as this table is--I am talking about 
150 of them--lined up to get what they call testers. And I have 
never seen--and then sometimes when I come home, I see people, 
it looks like ants just coming out, people coming from nowhere, 
and everybody trying to get to one location, and they literally 
stand in line, extremely disciplined, get the testers, and then 
they move on, and it is a culture.
    Martin Luther King, Sr. said, you cannot lead where you do 
not go and you cannot teach what you don't know. And I think a 
lot of people in Congress would be shocked, I mean, absolutely 
shocked, if they saw this. But I have seen it with my own eyes. 
If somebody had told me that it happened, I wouldn't have 
believed them. And so it happens over and over, and this drug 
thing is so sophisticated, it is incredible. It is a well 
organized corporate structure that operates under the nose of 
the police, which is incredible.
    And so I just want to just go to Dr. Thompson. You know, we 
here in Baltimore, we are trying to pull together our anti-drug 
coalition. By the way, the chairman has been very effective in 
pulling together a coalition in his district. What are the 
biggest obstacles that you face, Dr. Thompson, in trying to 
pull that together, the coalitions?
    Ms. Thompson. I think the biggest obstacle of pulling 
together the coalition is that community members have been 
promised or leaders have been promising so many times, that it 
is difficult for them to come out again, and just say and 
believe that something really is going to happen. So that is 
one major obstacle. And I think that the thing is that the 
problem is so huge that trying to, you know, just narrow 
communities down and get the people from individual communities 
together has been another challenge. Each community in 
Baltimore is different, so neighborhood by neighborhood, we 
have to go in and begin to form those coalitions within those 
neighborhoods, and it is just that there are so many 
communities in need that it has been hard to garner the 
resources in order to make that effort really effective.
    Mr. Cummings. General Dean, with regard to these kinds of 
problems, the Dawson problem, and I assume that this is 
something that is very significant to your organization since 
you deal with all this stuff nationally. I mean, have you--are 
there strategies--you talked about general strategies a little 
bit earlier in your testimony, but as to strategies directly 
related to trying to help people in this situation that 
Reverend Burley just talked about, where you have a situation 
where people call the police, and the next thing you know--it 
is so incredible to me the police would come to your door and 
then--but I mean, do you all try to deal with those, because it 
seems to me, and I think Reverend Tucker said it quite well. If 
you don't have the cooperation--and I believe this--if you do 
not have the cooperation of the public, you can forget it. The 
police job is made a million times harder.
    General Dean. Congressman Cummings, yes, we are very 
concerned about this, and there are some strategies. And I 
think that a couple of points I want to make, that coalitions 
represent the people and other people in the community for 
which they exist. So that is the good thing about a community 
coalition. It is the people in that community. It is not 
someone from the outside; it is them. That is the first point. 
Second, you can train those coalition leaders so that they can 
then work with their law enforcement people, who I believe 
intentions are good but need some assistance and help. And 
Detroit, MI is a good example. They train the police force on 
how to respond to the hotline so that they would, in fact, be 
cognizant of the safety issues associated with the members of 
the community.
    So I guess I am saying that we have strategies to work with 
coalition leaders and officials so they can then work with 
their local law enforcement people, and advise them, and guide 
them, so they don't commit the kinds of problems that the 
Reverend is talking about. I think when they are informed 
properly on how to manage and what to do in order to be 
respectful of individual's privacy, they will respond, I 
believe, and coalitions can be the conscious of the leaders in 
the community to get them to do the right thing.
    Mr. Cummings. I have so many questions. This is my last 
one. Have you all, Reverend Burley and Reverend Tucker, have 
you see a difference since this--and bad or good--since the 
Dawson tragedy? I mean, as far as just, you know, people coming 
together, working together. Have you----
    Rev. Burley. I have seen it good, and I have to take my hat 
off to the BULD organization because they have come in and 
really done an outstanding job on bringing people together. 
When I first came to Baltimore and first started pasturing New 
Life Missionary Baptist Church----
    Mr. Cummings. How long ago was that?
    Rev. Burley. That is 3 years ago in November. The problem I 
had is that most of my parishioners were outside of the 
neighborhood. So what I did was to get in the alleys, in the 
streets, and start talking to people on the fence, building 
relationships. And right now in my church, I have a choir in my 
church that is built up or put together by the community, and 
that choir is larger than any choir I have in the church. So it 
is through our relationships that we are going to get this 
done. It is not through conventional policing. We are going to 
have to get out and get in each other's face to know our 
neighbors. Because we live in neighborhoods and we are not 
neighbors. OK? So we have to learn to be neighbors, and the 
BULD organization has done an outstanding job in teaching us 
how to be neighbors. And that is the upside of this whole 
thing. People are pulling together now to bring about a change 
in the community.
    All of it right now is gelling together really well and we 
will continue to do that so that we will have a better 
cohesiveness in the neighborhood so that we can get more in the 
way of policing done to get the bad elements out of our 
neighborhood. And we are going to keep going in that direction, 
but that is the upside of it. But the downside of it is that 
what we are doing to make it bettering the inner neighborhood 
is moving all of the drug activity to the outer neighborhood. 
And what we want to do is to move as the drug activities move. 
We want to move with our relationships so that we can move it 
out of that area altogether.
    Rev. Tucker. One of the things that I see is that I think 
it is eight or nine BULD churches in the Oliver area, and we 
are working in tandem with each other to rebuild our community. 
We are not duplicating programs. We sat down at the table in 
the beginning and looked at the broad sweep of what was needed, 
what people told us was needed in the community. And then we 
decided as pastors and as lay leaders in the churches what each 
church would address so that we didn't duplicate services. And 
then I would think that the other thing is that we also go out 
as a group. We have walks where we go as a group and talk to 
neighbors, talk to the community, so that we are always a 
visible force in the community. We are not hiding behind the 
church doors, but we are going out on the street. I think they 
call it taking it to the streets, and that is what we are 
doing. And I don't think that you can do it any different. You 
cannot be in a relationship with somebody that you don't know.
    So we are constantly out there trying to garner 
relationships and then maintain those relationships, because it 
is our belief that you cannot address a problem today, and on 
Eden Street, even in Preston where my church sits, for months I 
did not see any drug activity. Now, here it is almost a year 
later, and I see it just coming right back. Now, that tells me 
there is something we are not doing right.
    Mr. Cummings. Mr. Chairman, one of the things as I close, 
you know, you said something that is so profound, and it is 
something that I think we are all aware of, about how the 
neighborhood, how you just don't come in and tell people what 
to do. You try to work with them, and that is what the 
coalition is all about. I agree with General Dean. I was just 
wondering, I was just thinking, Mr. Chairman, we really need to 
make--I mean, with this $1 million, we need to make sure that 
there is consultation with the community, because I think that 
is very, very important. I mean, not necessarily, the community 
control, but right now I don't know whether--I would have to 
really review the legislation. There has to be some kind of 
consultation because it goes back to what you just said.
    We can do this high intensity thing, like the targeting 
they are talking about, but unless you develop the 
relationships in the process, as soon as that intensity moves 
away, you haven't built the infrastructure. And I look at areas 
like our northeast section, like around Loch Raven and Northern 
Parkway, areas like that. You don't see that kind of drug 
activity. I am not saying that it is not there, but I mean, you 
don't see it. That is for sure. And that is because I think, in 
part, because there is better organization maybe. I don't know. 
But they are determined. They stop it, they nip it in the bud. 
I mean, because I know a lot of those folks up there and they 
don't play.
    So I think what we have to do is look for things, ways that 
we can sustain these safe drug-free type neighborhoods. But I 
want to thank all of you for being here. I really appreciate 
it.
    Rev. Burley. Can I say one thing before----
    Mr. Cummings. Sure.
    Rev. Burley. What I would like to ask, and it might be 
possible, it might not, a lot of what we are talking about, the 
panelists have never seen. Can we invite you down with us and 
set up a tour so you can see some of what we are talking about? 
See because it is something to try to visualize the picture we 
are painting here, but we have a picture that is greater than 
what we are painting here.
    Mr. Cummings. Let me just say something. The chairman can 
answer that. The drug czar and I tried to do that, and people 
ran like--I mean, you would have thought--but maybe we didn't 
do it the right way. Maybe we should have been in a car with 
dark windows or something, but they see--the drug czar, he came 
in, of course, with this gray suit and white shirt and 
everything, and they probably--I guess they thought--I mean, I 
think they kind of trusted me, but they said, oh, boy, they are 
getting ready to turn us in. And so he never really got a 
chance to see it, you know. So some kind of way, we have to 
figure out how to do that, because I was trying to show him 
some of the stuff that you are talking about, and he looked at 
me and said, well, you know, what are we looking for? But 
everybody had ran off, you know, and then the word travels very 
quickly, and you know, they have all kinds of codes in our 
neighborhoods, Mr. Chairman--what is it--Five-O. What they will 
do is they will say Five-O in one block, and that Five-O may 
travel about 10 or 12 blocks in about 30 seconds. So we just 
have to figure out how to do that.
    Rev. Burley. Come talk to me.
    Mr. Souder. We will try to do something like that. Some of 
these problems, they may not exactly repeat, but they rhyme in 
our different cities. And my hometown, one of the things I did 
when I first ran for Congress was I wanted--I taped a film, a 
commercial, that I was going to try to work to reduce the drug 
crime in the hardest low income area of the city. The police 
didn't want me to go in because they said it wasn't safe, even 
in the middle of the day. We went in anyway. One of our guys 
went to the houses around and told them what we were doing. 
They said they didn't mind. And you can see as I am walking 
down the street, they did a drug deal, boldness of sin. They 
did a drug deal while I am taping that you can see in the back 
of the commercial. It is just extraordinary, that you certainly 
can't come in with a bunch of protection. I would like to see 
some of the different things. In a way, I don't know, I think I 
was kind of born with a tie, but I will see if I can lose it, 
and see if we can work out something like that.
    Mr. Cummings. We will put you in a neighborhood outfit. We 
will give you a hat and turn it backward, and you will be----
    Mr. Ruppersberger. A Republican dressing like that? No way.
    Mr. Souder. Mr. Ruppersberger.
    Mr. Ruppersberger. Well, look. I really appreciate this 
panel, and it is unfortunate that the former panelists couldn't 
hear this testimony. And I think Congressman Cummings and I 
have a job to do to educate them and to try to do some 
implementation. We have been talking about a lot of problems 
and a lot of issues, but we have to implement now. I think the 
Dawson situation affected everyone involved and you will never 
forget about it. Just like when we were talking about burying a 
police officer. I remember burying the first police officer 
when I was county executive, a man who was out on parole and he 
was violating his parole, you know, and this is our criminal 
justice system.
    But I think right now the things, really, we need to look 
at, and the chairman and I were talking at the last break. It 
is just not about putting people in jail. It is not about--it 
is about starting from all facets within our society and our 
community. You are talking about dealing with the children at a 
young age, Head Start programs, that are at risk right now. You 
are talking about building pride in your community. You know, I 
happen to go to these neighborhoods. I must be a little crazy, 
but anytime I come to the city, I will drive by myself through 
some of the worst neighborhoods. When I was young, going to law 
school at night, I worked for the Division of Special Services 
Baltimore City, 23rd and Barkley, and Eastside-Westside project 
areas during the rides. And I think the citizens thought I was 
a police officer. That is why I am still here today.
    But anyhow, what you see, and it is so wrong to see 11 and 
12-year old pregnant girls. I mean, see why we have drug 
situations, and the peer pressure, and all those things that 
are happening. But how are we going to take it back? I mean, I 
said it before, I think. It is power to the people in the 
neighborhoods. Now, you are not going to have pride in your 
neighborhood if you go--and I just went to a large African-
American church on the west side yesterday, and I drove through 
my neighborhoods as I do all around North Avenue and all the 
different areas there, and the trash in the street--and that is 
something I know that the mayor is constantly trying to deal 
with, but he can't do it himself. We have to organize our 
communities, and our citizens, and our children, and get our 
children out as a group. And say, we are going to do it, not 
just the government, the government can't do it all, but with 
everyone.
    And then if there is an issue of management, as far as I am 
concerned, that 911, 311, that is just an issue of management. 
We are going to get to the mayor, you know. We have a little 
bit of clout, I think, with the mayor--I mean, Congressman 
Cummings and I. We are going to make sure that someone has to 
be held accountable for that type of situation. Also, what we 
don't do a lot is when we move up in leadership and deal with 
some of the issues, you have a tendency not to listen. You try 
to listen, but you really maybe don't listen. I was listening 
to every word that was said here today. And when we can listen 
to the issues of when you call 911, a bureaucrat or somebody, 
they are not trying to hurt you. They just show up and say, I 
have to write this report, so we had to listen. But it takes 
more than just the government and the police.
    I am concerned about one thing, and Dr. Thompson, I am 
going to ask you this question. If you want to answer it, it is 
maybe a hot potato, but there has been a lot in the media in 
the last couple of years about the relationship between police 
department, State's Attorney and U.S. Attorney. If you don't 
have a functional criminal justice system, and that means, 
also, after people get on parole or probation. An example, you 
know, you might go to jail for 10 years for drugs. You are out, 
and you have no training. You have a parole officer that has 
500 names on the list, and that person needs to be 
rehabilitated, and they have to feed themselves, and they have 
to pay for rent wherever it is. Well, if they can't get a job, 
where are they going to go? They are going to go right back to 
where they can get the money and where it is easy.
    I mean, so it is an entire system that we have to work 
through. And hopefully, here today, by listening to your 
testimony, because I knew most of the things that the other 
ones said, to be honest with you. But it just focuses again, 
and you have to start with the community, and we have to listen 
to each one, and then we pull together. And you know, I have 
read about BULD, and I think BULD has done a lot of good 
things, and I really respect it. But BULD and any other 
organization, the worst way to get something done with 
leadership is to constantly threaten. Don't threaten them. Lay 
the facts on the table and say, we are going to work this 
together, and that is what we need to do. And I think right now 
the momentum should be here. We can never forget what happened 
with the Dawsons.
    So let me ask you this--the issue of community policing. 
Now, when I was county executive, we had issues of too many 
police went too far and they let the bad guys go. You need a 
balance. The bottom line, what would you like to see, because I 
think if you have an aggressive community policing program, a 
police officer that you can relate to in that community, you 
might be able to address this 911 issue, you might be able to 
address if there is a threat that is out there. And then what 
would you like to see or what do you see as it relates to 
community policing the way it is working now? Real quick, 
though, because I know we do have to go vote.
    Ms. Thompson. I think that in dealing with community 
policing, the most important thing is not only having a 
physical police force, but also, having citizens who think that 
if they call the police, the police will be responsive, and 
getting community members to think that they are in power to 
control their environment where they live. So it is not only 
prevention, but it is making the community a safe community for 
people to live in and looking at ways that people feel like 
they can trust who they call when they call the police. A lot 
of kids believe that the police are bad people, and so what we 
need to do is figure out a way for the young people to believe 
that a police officer is someone who is going to----
    Mr. Ruppersberger. Like the PAL program in dealing with 
children in a nonconfrontational way.
    Ms. Thompson. Exactly.
    Mr. Ruppersberger. How about the hardest question, the 
criminal justice issue between the States Attorney and the 
police. That has to be worked out. Is it working out? I haven't 
heard a lot lately.
    Ms. Thompson. You know, I think that we probably should 
have asked that Mrs. Jessamy come here and talk about the 
issues between her and the police department. I am not--I don't 
feel empowered to talk about----
    Mr. Ruppersberger. Well, it shouldn't be done publicly, 
because it gets worse that way. But I think maybe the 
Congressman and I can look into that and work that out 
together, because it has to be dealt with.
    Ms. Thompson. It needs to be.
    Rev. Tucker. When I was in--I am sorry.
    General Dean. Go ahead.
    Rev. Tucker. When I was in Detroit, I worked with a program 
called Project Start, and it was a program that addressed the 
issues of parolees and people that are on probation. And all of 
the issues that the court mandated, because you cannot go from 
one place of total incarceration to freedom and then not be 
given the support. So the agency that I worked for was a 
support agency, an agency where I was a therapist, so that we 
did one-on-one's. I did group and one-on-one's. And we also had 
classrooms that the Board of Education provided for people who 
did not have their GED or high school diplomas, so that there 
was a lot of work being done before people got to their 
communities.
    And there was this halfway house or halfway house living, 
and I know that my brother, who was incarcerated twice in 
California, I know that he--the last time, he lived on a ranch, 
and when I visited out there, I went to the ranch. Now, he 
stayed on that ranch 1 year before he was placed back in the 
community so that he was given some mechanisms for controlling 
his anger, for revitalizing the skills that he had before he 
went to prison, so that he could maintain himself in employment 
and in a viable relationship to folks in the community.
    Mr. Ruppersberger. And did it work?
    Rev. Tucker. And it worked.
    Mr. Ruppersberger. See, the research isn't there. If you 
look at the numbers of recidivisms, you will see that you 
commit a crime again and go back, I am sure they are enormous.
    Rev. Tucker. And is this with or without support?
    Mr. Ruppersberger. Well, the issue is that there is not 
enough research to give support. You have this poor parole 
officer who has 500 people they have to oversee. So all they do 
is just come in and check in. They say, do you have a job? OK. 
You don't? Then get one. So these are the issues we are dealing 
with. And we are not going to solve this here at the hearing, 
but my whole point for this, it is not just putting people in 
jail. It is a whole community issue from cradle to grave. And 
hopefully, we have learned today that we can make a difference, 
and I really respect the testimony provided by all of you here 
today. Thank you.
    Mr. Souder. I want to thank you all for participating as 
well, and the tragedy, that I can't imagine the impact on the 
local community. And I hope that the drug thugs and the 
terrorists don't, in effect, win with this by having people not 
come forward. One of the, in a very small way but a different 
way, it directly impacted me because in my home neighborhood 
just a few weeks ago, we had some kids who, presumably, had 
been involved in narcotics and did some minor damage at our 
house in an upper middle class neighborhood. But one night when 
I was home, my family lives there, I am in Washington much of 
the week, worry very much about their pressures. They were 
terrorizing another family in the neighborhood that was a 
minority family. I saw some of it, and then the question comes, 
am I going to witness? The police needed another witness. So 
when the family was being terrorized, quite frankly, none of 
the neighbors would talk. And so I signed a report.
    Now, all of a sudden, because I am a Congressman, it is a 
little bit different ballgame. And the question is, is my wife 
going to get harassed, are the kids? They were around the other 
day, but we cannot let them win, and we have to figure out 
how--little did I know when I went onto this bill that my 
situation, that I was going to get caught up in one myself. Not 
probably the same level, and the challenges are different. In 
different parts of the country they are different, and in 
different neighborhoods. But the drugs and the crime are 
everywhere right now. You are just in neighborhoods where you 
are really fighting on the frontline, and we appreciate your 
testimony today, and I appreciate the members from Baltimore 
encouraging us to have this hearing here and learn more about 
it, and we will try to be back.
    Mr. Cummings. And I just want to say thank you to all of 
you, too. And to panelists and to--some people have been here 
all day, and I really appreciate you all being here, because 
this is very important.
    Rev. Burley. I brought some folks from Oliver. Would you 
all stand, please?
    Mr. Cummings. Thank you very much.
    Mr. Souder. OK. With that, the hearing is adjourned.
    [Whereupon, at 2:22 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T1837.033

[GRAPHIC] [TIFF OMITTED] T1837.034

[GRAPHIC] [TIFF OMITTED] T1837.035

[GRAPHIC] [TIFF OMITTED] T1837.036

[GRAPHIC] [TIFF OMITTED] T1837.037


</pre></body></html>
